<html>
<title> - OVERSIGHT HEARING TO RECEIVE TESTIMONY FROM ENVIRONMENTAL PROTECTION AGENCY ADMINISTRATOR SCOTT PRUITT</title>
<body><pre>[Senate Hearing 115-325, Volume 1]
[From the U.S. Government Publishing Office]


                                              S. Hrg. 115-325; Volume 1

 OVERSIGHT HEARING TO RECEIVE TESTIMONY FROM ENVIRONMENTAL PROTECTION 
                   AGENCY ADMINISTRATOR SCOTT PRUITT

=======================================================================

                                 HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 30, 2018

                               __________

                                Volume 1

  Printed for the use of the Committee on Environment and Public Works
  
  
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]  


        Available via the World Wide Web: http://www.govinfo.gov
               
               
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
30-599 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b4d3c4dbf4d7c1c7c0dcd1d8c49ad7dbd99a">[email&#160;protected]</a>                
               
              
               
               
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED FIFTEENTH CONGRESS
                             SECOND SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
JOHN BOOZMAN, Arkansas               BENJAMIN L. CARDIN, Maryland
ROGER WICKER, Mississippi            BERNARD SANDERS, Vermont
DEB FISCHER, Nebraska                SHELDON WHITEHOUSE, Rhode Island
JERRY MORAN, Kansas                  JEFF MERKLEY, Oregon
MIKE ROUNDS, South Dakota            KIRSTEN GILLIBRAND, New York
JONI ERNST, Iowa                     CORY A. BOOKER, New Jersey
DAN SULLIVAN, Alaska                 EDWARD J. MARKEY, Massachusetts
RICHARD SHELBY, Alabama              TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
               Gabrielle Batkin, Minority Staff Director
                            
                            
                           
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                            JANUARY 30, 2018

                                VOLUME 1
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     3

                                WITNESS

Pruitt, Hon. Scott, Administrator, U.S. Environmental Protection 
  Agency.........................................................     6
    Prepared statement...........................................     9
    Responses to additional questions from:
        Senator Barrasso.........................................    14
        Senator Carper...........................................    21
        Senator Booker...........................................    48
    Response to an additional question from Senator Boozman......    55
    Responses to additional questions from:
        Senator Ernst............................................    56
        Senator Fischer..........................................    59
        Senator Markey...........................................    61
        Senator Merkley..........................................    69
        Senator Sanders..........................................    78
        Senator Van Hollen.......................................    83
    Response to an additional question from Senator Wicker.......    84

                          ADDITIONAL MATERIAL

From Senator Barrasso............................................   447
From Senator Carper:
    Endangerment Finding and Climate Science.....................   594
    Transparency.................................................   641


                                VOLUME 2
                          ADDITIONAL MATERIAL

From Senator Carper (continued):
    EPA Workforce Reductions.....................................   742
    EPA Budget Cuts..............................................   796
    Pruitt Expenditures..........................................   838
    EPA Politicizing Grants......................................   862
    Pruitt Travel................................................   883
    Deregulation and Delays......................................   926
        Air......................................................   992
        Chemicals................................................  1042
            Hazardous Waste......................................  1093
        Water....................................................  1097
    Conflicts of Interest........................................  1111
    EPA Scientists...............................................  1206
    GOP Criticism................................................  1257
        Climate..................................................  1280
    Environmental Justice........................................  1298
    Pruitt-Style Enforcement.....................................  1308
    General Materials............................................  1361
Letter to Hon. Scott Pruitt, Administrator, U.S. Environmental 
  Protection Agency, from John Carney, Governor, State of 
  Delaware, January 30, 2018.....................................  1466

 
 OVERSIGHT HEARING TO RECEIVE TESTIMONY FROM ENVIRONMENTAL PROTECTION 
                   AGENCY ADMINISTRATOR SCOTT PRUITT

                              ----------                              


                       TUESDAY, JANUARY 30, 2018

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m. in 
room 406, Dirksen Senate Office Building, Hon. John Barrasso 
(Chairman of the Committee) presiding.
    Present: Senators Barrasso, Carper, Cardin, Booker, Markey, 
Duckworth, Whitehouse, Merkley, Gillibrand, Sanders, Van 
Hollen, Inhofe, Moran, Boozman, Rounds, Fischer, Sullivan, and 
Ernst.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this hearing to 
order.
    We have quite a full house today. I welcome the audience.
    This is a formal Senate hearing in order to allow the 
Committee to conduct its business, I am going to maintain 
decorum. That means if there is any disorder or demonstration 
by a member of the audience, that person causing the disruption 
will be escorted from the room by the Capitol Police.
    First, I would like to welcome the Administrator of the 
Environmental Protection Agency, Hon. Scott Pruitt, to the 
Senate Environment and Public Works Committee for your 
testimony today.
    With respect to today's hearing, we are going to abide by 
the Committee's 5 minute rule for length of member questions in 
the first round. Time permitting, we will also have a 2 minute 
second round of questions until 12:30, when Administrator 
Pruitt has to leave the building. Of course, members will also 
have the ability to submit written questions to Administrator 
Pruitt for the record.
    Today's hearing is to examine the EPA's record to date 
after this first year of the Administration. The Environmental 
Protection Agency, under the leadership of Administrator 
Pruitt, has been doing the hard work of protecting the air we 
breathe, the water we drink, and the communities where our 
families live.
    Administrator Pruitt has led the agency fairly. He has 
balanced the need to prioritize environmental protection with 
the desires of Americans to have thriving and economically 
sustainable communities.
    His leadership of EPA is vastly different than that of the 
last two predecessors. Under the Obama administration, the 
agency had lost its way. In some very high profile cases, the 
EPA harmed the very communities it pledged to protect.
    During the last Administration EPA administrators created 
broad and legally questionable new regulations that undermined 
the American people's faith in the agency. These regulations 
have done great damage to the livelihoods of our Nation's 
hardest working citizens. The regulatory rampage of the 
previous Administration has violated a fundamental principle of 
environmental stewardship to do no harm.
    This failed environmental leadership has contributed to two 
of the worst Government created environmental disasters in 
decades: the Gold King Mine spill and the Flint, Michigan, 
water crisis. Those disasters hurt people--many from low income 
and minority communities, who can least afford it.
    Under Administrator Pruitt's leadership, the EPA has taken 
a number of bold steps to protect the environment, while not 
harming local economies. Administrator Pruitt is a key leader 
of the President's de-regulatory agenda, including ending the 
war on coal. Scott Pruitt's policies at the helm of EPA likely 
have protected more jobs and promoted more job growth than any 
other EPA Administrator in history. He has done so while making 
significant environmental progress.
    The American economy grew 2.4 million jobs since President 
Trump's election. This job growth happened in critical 
industries, like manufacturing and mining. When the Department 
of Commerce asked manufacturers at the beginning of 2017 which 
Federal Government regulations generated the greatest burdens, 
the answer was clear: the EPA. The top nine identified 
regulations that impact manufacturing are all EPA regulations. 
At the top of the list were the Waters of the U.S. Rule and the 
Clean Air Act Rule.
    Administrator Pruitt is working to address these and other 
EPA rules. His commitment to revisit misguided policies is 
growing our economy in manufacturing, in mining, and across the 
board. Two prime examples are proposals to repeal the Clean 
Power Plan and the Waters of the U.S. Rule.
    With regard to the Clean Power Plan, the prior 
Administration wanted to put coal out of business. Twenty-seven 
States challenged the Clean Power Plan because they saw what 
the EPA was doing. EPA, under Pruitt's leadership, is on the 
right track and getting that rule off the books.
    As he undoes that rule, I appreciate the Administrator's 
desire to hear from those who would have been hurt the most. 
The Administration has already held a listening session in 
Senator Capito's home State of West Virginia. I look forward to 
welcoming the EPA to a listening session in Gillette, Wyoming, 
in March.
    Another key way that Pruitt has put environmental policy on 
the right track is the EPA's withdrawal of the Waters of the 
U.S. Rule. The Obama administration's Waters of the U.S. Rule 
would have given EPA almost boundless authority to regulate 
what Americans can do on their property. This would have 
impacted farmers, ranchers, landowners, and businesses.
    The EPA can and must redefine Waters of the U.S. in a way 
that makes common sense and respects the limits of the EPA's 
authority. This issue is a priority for my home State of 
Wyoming, as well as many other States.
    The Administration's deregulatory approach is working. The 
White House Counsel on Economic Advisors reports that the 
unemployment rate for manufacturing workers is low, the lowest 
rate ever recorded. The facts also show that according to the 
last Energy Information Agency quarterly report, coal 
production in the west is 19.7 percent higher than the second 
quarter of 2016. In addition, the stock market is reaching 
record all time highs.
    Administrator Pruitt has also made significant progress in 
protecting the environment and righting the wrongs of the past 
Administration. He has made it a priority to clean up America's 
most contaminated sites. He has held polluters accountable, 
even if it was his own agency that was responsible for the 
pollution.
    Pruitt rightfully called the Obama administration's 
response to the EPA caused Animus River spill wrong. And he 
allowed for victims of the spill to refile their claims that 
had been denied by the previous Administration. Administrator 
Pruitt also allowed the city of Flint, Michigan, to have their 
$20 million loan forgiven so that money could be better used to 
protect the health and safety of its citizens. Pruitt stated, 
``Forgiving this city's debt will ensure that Flint will not 
need to resume payments on the loan, allowing progress toward 
updating Flint's water system to continue.''
    Administrator Pruitt, the reward for good work is often 
more work. I don't need to tell you that we have a lot more 
work left to do. Knowing that, on this Committee, we look 
forward to supporting your continued efforts.
    So I would like to now ask Ranking Member Carper for his 
opening statement.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks, Mr. Chairman. I want to thank you 
for finally getting this hearing on the books. Oversight is a 
critical part of our Committee's work. Regardless of which 
party is in power, I am glad that we finally have a chance to 
hear from Mr. Pruitt today.
    Welcome.
    Mr. Pruitt, it has been a while since you have been with 
us. Thank you for postponing your planned trip to Israel and 
Japan to facilitate your appearance before this Committee today 
for the first time in more than a year.
    I have a friend who, when asked how he is doing, he says, 
``Compared to what?'' Sometimes he says, ``Compared to whom?''
    What I would like to do is say, how about compared to your 
immediate predecessor? Gina McCarthy appeared before this 
Committee six times in 2 years. Six times in 2 years. Her 
predecessor, Lisa Jackson, appeared before us 14 times in 6 
years. Fourteen times in 6 years. You could do better on this 
front. It is important that you do.
    Today, we not only are going to hear from you about how 
things are going at EPA, we will also hear tonight from 
President Trump about the current state of our Union. So it 
seems like an appropriate time to also take a look at the state 
of our environment. I understand that EPA has been highlighting 
its so-called first year achievements on posters around the 
agency. In fact, we have a copy of one of those posters here.
    Let's take a closer look at what is being celebrated as 
achievements. First, EPA has moved to repeal the Clean Power 
Plan, but with no real replacement to fulfill the agency's 
legal obligations to protect Americans from carbon dioxide 
pollution, all while rolling back additional clean air 
protections. Similarly, EPA has moved to repeal the Clean Water 
Rule, but again, with no new plan to protect the drinking water 
sources on which 117 million Americans depend.
    You have been touting the agency's work on contaminated 
Superfund sites by repeatedly taking credit for cleanups 
completed under President Obama's administration, all while 
proposing to cut the program by 30 percent. Thirty percent.
    As part of the TSCA reforms that Congress passed in 2016, 
we gave EPA more authority to assure that chemicals being sold 
on the market are safe. That way, families can have confidence 
in the products that they use every day. Under your leadership, 
EPA has not used that authority, so American consumers still do 
not have the confidence that they deserve and that we intended.
    Finally, EPA has moved to either repeal, reconsider, or 
delay at least 25 environmental and public health protections 
in the last year alone, which certainly does not create 
certainty for the entities that you regulate and that we 
represent.
    Those are not achievements. Those are the exact opposite: a 
clear failure to act. The state of our environment is also 
fundamentally linked to the state of our climate. And what do 
we see in 2017 alone? Second hottest year on record, multiple 
Category 5 hurricanes resulting in more than $200 billion in 
damages and counting. Catastrophic fires in the West followed 
by deadly mudslides, severe droughts that have wreaked havoc on 
our crops, rising sea levels that threaten coastal communities 
and cause frequent flooding.
    From Alaska to Delaware, from Maine to Miami, climate 
change is clearly affecting every corner of our country. Yet 
instead of spending time and resources trying to tackle what 
many of us believe is the greatest environmental challenge of 
our lifetime, this EPA--under your leadership, Mr. Pruitt--is 
waging a war on climate science.
    This EPA has scrubbed its Web sites of non-partisan climate 
science data collected over decades. This EPA replaced science 
advisors who have worked on climate issues for years with 
individuals backed by industry. Doing nothing would be bad 
enough. The fact that this Administration seems to be actively 
working to discredit and hide the clear science is the height 
of irresponsibility.
    For the past year we have heard you give responses to 
questions from members other congressional committees, and 
cable news hosts have asked you, and many of the so-called--I 
really think they are platitudes that you often use to repeat; 
they are not really answers.
    So let me just run through some of your recurring responses 
now, so that we can actually get to real answers today. Mr. 
Pruitt, you often say--these are your words--you often say that 
``rule of law matters.'' Well, Congress was very proscriptive 
when it wrote the Clean Air Act. The law sets timelines that 
EPA must use to determine our country is meeting Federal 
standards for harmful ozone pollution. But your EPA has chosen 
to continuously ignore and delay that very specific mandate 
from Congress, which leaves downwind States--like mine--and 
other vulnerable communities at risk indefinitely.
    Mr. Pruitt, you say over and over again that process 
matters. Do you really think that verbally directing career 
staff at EPA to delete the inconvenient economic benefits of 
the Clean Water Rule is good rulemaking process? Do you? Do you 
think that ignoring the advice of EPA scientists helps us clean 
up our Nation's water? Do you?
    You repeatedly insist that you are committed to cooperative 
federalism and that EPA ``needs to work together with the 
States to better achieve outcomes.'' Yet this Administration 
has sought to zero out funding for critical State programs, 
like those to clean up the Great Lakes and the Chesapeake Bay. 
And your EPA has refused to allow States to work together to 
address harmful pollutants like ozone.
    You like to tout that the U.S. is--your quote--``actually 
at pre-1994 levels with respect to our CO<INF>2</INF> 
footprint, thanks to innovation and technology.'' But that 
comment ignores the common sense and bipartisan regulations put 
in place over the last four decades to get us up to those pre-
1994 levels. It did not happen by accident, Mr. Pruitt. 
Reducing carbon emissions is the result of smart vehicle 
emissions standards, clean air regulations, and our Federal 
efforts to incentivize investments in clean energy, including 
natural gas and renewables, most of which your EPA is now 
trying to weaken or repeal.
    You also remind people that you are a former attorney 
general. You say that you ``know what it means to prosecute 
folks.'' But under your leadership EPA has slowed actions 
against polluters. Though you have touted EPA's recent 
enforcement successes, saying EPA has collected billions of 
dollars in penalties during your time at the agency, you 
conveniently forgot to mention that more than 90 percent of 
those penalties are from cases prosecuted entirely by the Obama 
administration.
    You say that you are ``getting the agency back to basics.'' 
But actions like the one you took just last week--just last 
week--to reverse critical prosecutions against hazardous air 
pollutants show that your EPA is actually moving us backward--
all the way back, in fact, to the early 1970s, when polluters 
were able to spew the most dangerous toxins--like mercury, 
lead, and arsenic--into the air we breathe and the water that 
we drink.
    Perhaps the most egregious response we have heard you give 
repeatedly is when you claim, ``President Obama said we had to 
choose between jobs and growth at the expense of the 
environment, or choose the environment at the expense of jobs. 
That is a false choice.'' That is your quote.
    Mr. Pruitt, I have been saying that choosing between our 
economy and our environment is a false choice for most of my 
time as Governor and U.S. Senator. My colleagues here will 
testify to that. Because I know, and our country's history has 
proven it to be true. I have easily said that hundreds of 
times.
    You know who else famously said that very same thing 
hundreds, maybe even thousands of times? Well, it was Barack 
Obama. Time and time again he told us, ``There will always be 
people in this country who say we have got to choose between 
clean air and clean water and a growing economy, between doing 
right by our environment and putting people back to work. That 
is a false choice.'' Whose words are those? Barack Obama. And 
he didn't just say it once. He said it hundreds of times.
    But he wasn't just waxing poetic, as some do. Under the 
Obama administration, our country rebounded, if you will 
remember, from the worst economic recession since the Great 
Depression. We went on to add 16 million new jobs, all the 
while implementing landmark environmental protections and 
lowering energy costs at the meter and at the pump for 
consumers.
    I don't say this lightly, Mr. Pruitt, but you are 
repeatedly misrepresenting the truth regarding President 
Obama's record. Surely we can disagree about policies; that is 
normal. But to take the very same words, the very same words 
that President Obama used on countless occasions, use them as 
your own and then claim that President Obama said the exact 
opposite is frankly galling. Stop doing it.
    I will end with this. Mr. Pruitt, when you were sworn in as 
EPA Administrator, you took the very same oath of office that 
every member of this Committee has taken and that some of us 
have taken many times. You swore that you would well and 
faithfully discharge the duties of office on which you were 
about to enter.
    Well, one of those duties is to be responsive to the co-
equal branch of Government, which means showing up here more 
than once a year to answer our questions.
    Today, Mr. Pruitt, please spare us the kinds of platitudes 
that you frequently use. Now that you are finally here, I want 
some real answers. My colleagues want real answers. I think the 
American people deserve real answers. We look forward to those 
answers, Mr. Pruitt.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Carper.
    We will now hear from Hon. Scott Pruitt, the Administrator 
of the Environmental Protection Agency.
    I would like to remind you, Administrator, your full 
written testimony will be made part of the official hearing 
today. I look forward to hearing your testimony. Welcome to the 
Committee.

        STATEMENT OF HON. SCOTT PRUITT, ADMINISTRATOR, 
              U.S. ENVIRONMENTAL PROTECTION AGENCY

    Mr. Pruitt. Chairman Barrasso, Ranking Member Carper, 
members of the Committee, Senators, good to see you this 
morning. It has been too long, as was mentioned by Senator 
Carper, and I am looking forward to the exchange and the 
discussion today.
    You know, as you know, I was confirmed by this Senate in 
mid-February of last year. As I began my journey at the agency 
I took the opportunity to spend time with the entire agency. I 
did in fact, Senator Carper, mention three priorities by which 
we would govern and lead the agency.
    The first was rule of law. And rule of law does matter. 
Rule of law is something that people take for granted, but as 
we administer the laws at the agency, the only power that we 
possess is the power that you give us. So as we execute our 
responsibilities in rulemaking, what you say in statute matters 
as we do our work. Because it provides certainty to the 
American people.
    And second, as you have indicated, Senator Carper, is 
process. Process is often overlooked. Process matters in 
rulemaking, because of the decisions that we make involving 
stakeholders across the country, those that seek to offer 
comment as we make decisions.
    So the EPA, the proposed rules that we adopt, the comments 
that we receive, responding to those comments on the record, 
then finalizing decisions in an informed way, is very, very 
important. One of the actions that I have taken as 
Administrator is to do away with the sue and settle practice 
that has gone on for years, not just at the EPA, but across 
executive branch agencies, where someone will sue the agency, 
and a decision will be made in a courtroom, and a consent 
decree will be entered, and the rulemaking process is bypassed 
entirely.
    So process is something that we have emphasized over the 
last several months, and it is something that I believe is 
working as far as providing clarity and confidence to the 
American people.
    Then third, as Senator Carper mentioned--and this is very 
important--is federalism principles. Statutes that you have 
passed here in this body, I think more so than others, 
cooperative federalism is at the heart of environmental 
stewardship. And so I have visited almost 30 States these past 
several months. And as we have visited stakeholders across the 
country, we have talked about Superfund, to the financial 
assurances rule in Minnesota, to the WOTUS rule in Utah, across 
the country, hearing from folks on how those rules impact them.
    So we have taken seriously those principles of rule of law, 
process and federalism.
    But as we look forward to 2018, I want you to know that 
there are some opportunities that we have to work together on 
some very important issues. The first I will mention to you is 
lead. One of the things that I think is terribly troubling is 
the lead in our drinking water. I believe that as we consider 
infrastructure in the first quarter of this year, as we head 
into the rest of 2018, investing in infrastructure changes to 
eradicate lead from our drinking water within the decade should 
be a goal of this body and I think a goal of the 
Administration. It is something I have mentioned to the 
President. The President is very supportive of that. And we 
look forward to working with you to declare a war on lead as it 
relates to our drinking water.
    Second, abandoned mines across this country are a huge 
issue. We have hundreds of thousands of those across the 
country. We have private citizens, companies who have the 
expertise, the resources to clean up those abandoned mines, but 
there are liability issues that need to be addressed, as you 
are fully aware. We should work together to advance an 
initiative to make sure that we do all we can to clean up those 
abandoned mines across the country.
    Superfund, you have mentioned, Senator Carper. I think one 
of the most tangible things we can do for our citizens with 
respect to environmental protection is to make decisions and 
get accountability with respect to our Superfund sites across 
the country. Just in the last several months, San Jacinto, 
Portland, and soon West Lake and St. Louis, Missouri--all sites 
that have been struggling for years--we are providing direction 
and leadership to ensure that we get answers and clean up those 
sites for remediation. It is about leadership and money. I look 
forward to working with you in that regard.
    Now, Senator Carper, I would say to you as I close, I think 
one of the greatest challenges we have as a country as it 
relates to environmental issues is the attitude that 
environmental protection is prohibition. And I don't believe 
that. I don't believe environmental protection is putting up 
fences. I believe that we have been blessed as a country with 
tremendous natural resources that we can use to feed the world 
and power the world. And we should, as a country, choose to do 
that with stewardship principles in mind for future 
generations. We can do both. It is something we must embrace. 
And I hope that we do work together to achieve that.
    I look forward to your questions today, and thank you, Mr. 
Chairman, for the opportunity to open with an opening comment. 
Thanks so much.
    [The prepared statement of Mr. Pruitt follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Thank you very much, Mr. Pruitt. We 
appreciate your being here.
    With my time, let me ask one question and reserve the 
balance of my time to interject as needed during the 
discussion.
    I would say to our Republican members, in order to assist 
Senator McCain, Senator Inhofe is going to be chairing the 
Senate Armed Services Committee hearing today. I know a number 
of you are members of that committee. So if it is OK with my 
colleague counterparts here, I would ask that he be allowed to 
go out of order when he arrives, and then he can quickly return 
to the Armed Services Committee. Thank you very much.
    Administrator Pruitt, I want to thank you again for 
implementing a new vision at the EPA that takes State input 
seriously. We are certainly feeling that at home in Wyoming. 
Wyoming has a very experienced Department of Environmental 
Quality. Wyoming strives to use the best representative air 
quality data available to make sound regulatory decisions on 
issues like ozone protection, regional haze, and permits for 
industrial facilities. I think it is very critical to have good 
data.
    So as a result, Wyoming spends a lot of time and resources 
to review data and determine when so-called exceptional events 
occur, as they do. An exceptional event might be a wildfire 
causing air pollution levels to seem high. Under the Clean Air 
Act, States and EPA are supposed to exclude data collected 
during these exceptional events, because they don't represent 
everyday circumstances.
    So from 2011 to 2014 my State identified many exceptional 
events that we asked the EPA to recognize these events and 
exclude the data from these time periods from regulatory 
decisions. Well, in 2016 the EPA refused to act, and there were 
46 of these Wyoming identified exceptional events between 2011 
and 2014.
    Because this previous Administration failed to act, my home 
State faces real consequences. So the failure to act is going 
to make it seem like there are violations of air quality that 
have occurred, creating the perception that there are air 
quality problems, when there really are not. This could lead 
EPA to base future decisions on bad data, and it could 
interfere with permitting and put some restrictions on 
Wyoming's economy.
    So I sent a recent letter to you, explaining the situation 
that the EPA had not yet acted on our filing. I just ask, if 
you had a timeline for when the EPA will be acting on Wyoming's 
46 exceptional event filings and any thoughts on that.
    Mr. Pruitt. Mr. Chairman, I think a couple things I would 
say, and you are speaking with, I think, particular emphasis on 
ozone. As you know, we are in the process of designating 
attainment and non-attainment with respect to ozone now. That 
has been priority. We will finish that in April. There are 
around 50 or so areas that have not been designated yet that we 
endeavor to finish by April of this year.
    I think what is important when you think about ozone, there 
has been a lot of focus on whether the parts per billion--75 
parts per billion, reducing it to 70 parts per billion, was a 
wise decision. That has not been our focus. Our focus has been 
on more the issues and implementation that you have raised.
    You mentioned exceptional events; there were others. 
Background levels--in addition to international global 
transport, we have some tremendous challenges with 
international air transport on ozone we also need to somehow 
consider, as we engage in the designation process.
    So we are earnestly looking at those implementation issues, 
Mr. Chairman, in addition to finishing that designation process 
by mid-April. And your exceptional events question is very, 
very important as we engage in implementation going forward.
    Senator Barrasso. Thank you. I will reserve the remainder 
of my time.
    Senator Carper.
    Senator Carper. Thanks, Mr. Chairman.
    Welcome, Mr. Pruitt. You have repeatedly stated that you 
want to follow the rule of law and work with States to protect 
our environment. Sadly, you fail at both when it comes to clean 
air. The Clean Air Act requires EPA to partner with the States 
to address cross-State air pollution. These protections are 
critical for downwind States like Delaware and our neighbors. 
They are critical for downwind States, not just like Delaware, 
but others up and down the east coast. We are located at what I 
call the end of America's tailpipe.
    Instead of working with States to address this pollution, 
your actions are actually making the problem worse. For 
example, you rejected a request from northeastern States to 
coordinate with upwind States to reduce ozone pollution. You 
have also failed to answer at least six State petitions--
several of which are from Delaware--that ask EPA to require 
upwind power plants to install or consistently operate already 
installed pollution controls.
    Last week you issued a memorandum to allow industry to 
increase air emissions of toxic chemicals like arsenic, like 
mercury, like lead, and impact the health of millions of people 
and further burdening States dealing with cross-State 
pollution. Later on we will get to some questions that are not 
yes or no questions; I have a limited amount of time.
    Let me start off with a series of yes or no questions. Just 
answer them yes or no if you will, please. Later on you will 
have a chance to expand.
    Let me start off; yes or no, Mr. Pruitt, did EPA do an 
analysis of the health effects of last week's decisions, 
including an analysis of the potential increased risk of 
cancer? Did you?
    Mr. Pruitt. Are you referring to the once in, always in 
decision, the policy decision from last week, Senator?
    Senator Carper. Yes.
    Mr. Pruitt. Yes, that was a policy decision that we have 
authority to make and the interpretation of statute.
    Senator Carper. Yes or no, it is my question.
    Mr. Pruitt. As I indicated, Senator, that is a policy 
decision that we made. As far as the once in, always status of 
determining whether someone qualifies at certain levels under 
statute. So that was a decision that was made outside of the 
program Office of Air. It was a policy office decision.
    Senator Carper. I find it--well, I will ask another 
question.
    Yes or no, did EPA do an analysis that shows exactly what 
facilities are likely to increase the toxic air pollution due 
to the action taken last week?
    Mr. Pruitt. Senator, that decision was a decision that took 
major emitters, as you know, under the statute, there are major 
emitters, and what I would call minor emitters.
    Senator Carper. I am sorry, I don't have a lot of time. I 
am asking for a simple yes or no, otherwise I will run out of 
time.
    Mr. Pruitt. Those are not yes or no answers, Senator. I 
have to explain what we were doing with that decision.
    Senator Carper. OK. I find it incredible that EPA did this 
seemingly without knowing or caring about potential health 
effects of its action.
    Again, yes or no, will you revoke this memorandum until the 
analysis is actually completed and the public has had a chance 
to comment on it? Will you?
    Mr. Pruitt. If I may, Senator, I can explain our decision 
from last week, if you want me to. If not, we can continue. But 
that is a decision. I can't give you a yes or no answer.
    Senator Carper. Thank you very much.
    Mr. Pruitt, I wasn't too happy when the Obama EPA asked for 
a 6 month delay to answer Delaware's cross-State air pollution 
petitions. However, your Administration seems to be ignoring 
those petitions altogether. The law requires an answer from the 
EPA in 60 days. You and your team had over a year to answer. 
Again, this is a simple yes or no, will you commit to answering 
the petitions already submitted to EPA by Delaware and other 
States that request EPA's help on cross-State air pollution 
within the next 30 days? Will you do that?
    Mr. Pruitt. I commit to you that we will get an answer to 
you very, very expeditiously. It is important, Senator, you are 
right.
    Senator Carper. Will you do that within 30 days? Is that 
asking too much?
    Mr. Pruitt. We will endeavor to respond within that 
timeframe.
    Senator Carper. Thank you.
    Mr. Pruitt, both the Bush administration and the Obama 
administration EPA concluded that global warming pollution from 
cars and SUVs was dangerous. This is known as the Endangerment 
Finding. Federal Appeals Court also upheld its finding after 
you and others tried to overturn it.
    When you appeared before us during your confirmation 
hearing a year ago, you agreed that the Endangerment Finding 
was ``the law of the land.'' You often say that ``rule of law 
matters.'' In fact, you actually made similar statements in 
comments no fewer than a dozen times.
    But since your confirmation hearing, it seems you have 
changed your tune. For example, last July you told Reuters that 
there might be a legal basis to overturn EPA's decision. You 
also stated in October and December of last year that the 
process EPA used to make the decision was flawed.
    Mr. Pruitt, the White House--Trump White House--has said it 
wants EPA and the Transportation Department to negotiate what I 
would describe as a win-win on CAFE and tailpipe standards with 
California. That means that the policy of the Trump 
administration must be to leave the Endangerment Finding alone, 
because the Endangerment Finding is what gives EPA and 
California the authority to write these rules in the first 
place.
    Another yes or no, Mr. Pruitt, for as long as you are 
Administrator, do you commit not to take any steps to repeal or 
replace the so-called Endangerment Finding? Do you?
    Mr. Pruitt. Senator, as I indicated in my confirmation 
hearing, that is something that is likely----
    Senator Carper. My time is just about expired. Please, yes 
or no.
    Mr. Pruitt. But Senator, the CAFE standards that you refer 
to----
    Senator Carper. Yes or no?
    Mr. Pruitt. We are working through that process.
    Senator Carper. Do you plan on taking any steps to repeal 
or replace the so-called Endangerment Finding, yes or no?
    Mr. Pruitt. We have made no decision or determination on 
that.
    Senator Carper. One last question.
    Well, I will just stop there. My time is expired. We will 
have a second round.
    Thank you very much.
    Senator Barrasso. Thank you, Senator Carper.
    Senator Fischer.
    Senator Fischer. Thank you, Mr. Chairman, and thank you, 
Administrator, for being here today.
    EPA's back to basics agenda has resulted in economic 
viability across the Nation, while still ensuring the EPA's 
primary mission of protecting our environment is upheld. I 
thank you for that.
    In 2017 Nebraska hit a jobs milestone, with an unemployment 
rate of 2.7 percent, which was reported last December. Mr. 
Chairman, I would ask unanimous consent to submit for the 
record an article from the Lincoln Journal Star highlighting 
Nebraska's unemployment standing as the fourth lowest in the 
Nation.
    Senator Barrasso. Without objection, so ordered.
    [The referenced information follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Fischer. Administrator, this is a direct 
correlation to your efforts at the EPA to streamline the 
regulatory process that has for many years negatively impacted 
job creators' ability to hire workers because they were forced 
to allocate resources to comply with many cumbersome 
regulations. This past year has been a welcome change for 
Nebraska's public power utilities, our farmers, and our 
ranchers, manufacturers, and small business owners.
    I am encouraged by the EPA's recent decision to revisit the 
2017 Regional Haze rule, which was issued in the final days of 
the Obama administration. If implemented, that rule would take 
authority away from the States and impose a one size fits all 
Federal implementation plan that simply doesn't make sense. 
Many rural utilities have been adversely affected by past 
regional haze actions.
    During the prior Administration, EPA repeatedly second 
guessed States' plans--including Nebraska's 2012 plan--and 
instead imposed Federal plans that forced the installation of 
unnecessary and costly controls that went well beyond what the 
States had demonstrated what was needed. As you know, Nebraska 
is the only 100 percent public power State in the country. That 
means that any cost that is incurred by the utility from 
regulations gets passed on to every single one of our citizens. 
It is very important to me that you get this rule right.
    So can you describe what additional efforts EPA is taking 
to improve the next phase of the Regional Haze program and the 
timeline for those actions, and how will the EPA respect States 
and also make sure that electricity is not made more costly 
through these unnecessary regulations?
    Mr. Pruitt. Senator, thank you for the question. I would 
say to you that one of the interesting pieces of information 
that I discovered upon arriving at the agency was a collection 
of about 700 or so State implementation plans that had been 
prepared by States all over the country where resources, 
expertise had been deployed to improve air quality across the 
full spectrum of programs, from NAAQS--excuse me, from Regional 
Haze across the spectrum. There was a backlog with no response. 
We put an emphasis on that, and that backlog is being 
addressed.
    But to the question about regional haze, regional haze is a 
portion of our statute that I think even provides more primacy 
to the States. As you know, the only requirement is to reach 
natural visibility by the year 2064. So while the States are 
taking steps to reach that level by that point, they have 
tremendous latitude on how they achieve it.
    So we are revising all those SIPs, looking at those State 
implementation plans, to which you refer, making sure that 
States are submitting plans that will reached objectives by 
that timeframe, as you have indicated in statute.
    Senator Fischer. I thank you for your commitment to that 
and always taking into consideration the time and the expertise 
that States put forward on those plans.
    I would now like to turn to a topic that you are well aware 
of, and that is the 2015 WOTUS rule. I applaud you and the 
Administration's commitment to rescind the rule and focus on 
providing American businesses and families with really a clear 
definition of WOTUS that does not go beyond Federal authority. 
Can you share with us what the next steps are in the EPA's 
process for repealing this rule?
    Mr. Pruitt. Yes, Senator.
    And Senator Carper, this really goes to some things that 
you mentioned in your opening statement as well.
    This is not deregulation, when I am talking about WOTUS or 
even the Clean Power Plan. We are not deregulating in the 
traditional sense. We are providing regulatory certainty, 
because there are steps being taken to provide a substitute, a 
replacement for WOTUS. There are steps being taken to provide a 
substitute, a replacement to the CPP that we are in the midst 
of presently.
    So with respect to WOTUS, we have a withdrawal proposal 
that is out in the marketplace that will deal with that 2015 
rule to provide certainty. Then we have a step two process that 
is ongoing to replace a substitute definition with what the 
textual and statute and case law says is waters of the United 
States. So we are working through that process.
    I anticipate that proposal, Senator, coming out some time 
in April, May of this year, the proposed substitute. Then 
hopefully finalizing that by the end of 2018.
    Senator Fischer. Thank you, Administrator. I look forward 
to reviewing that.
    Senator Barrasso. Thank you, Senator Fischer.
    Senator Cardin.
    Senator Cardin. Administrator Pruitt, first of all, thank 
you for being here.
    Let me just preface my comments with your statements in 
regard to lead in drinking water. There is strong bipartisan 
support to help eliminate lead in drinking water. We hope that 
we can have an actionable agenda to accomplish that in a 
bipartisan way.
    I am going to use my time to follow up on our confirmation 
hearings, to talk about the Chesapeake Bay. You are not going 
to be surprised to know that. We have one new addition to our 
Committee; my colleague from Maryland, Chris Van Hollen, is on 
the Committee. So you are going to get more than just one 
Senator, and I also want to thank Senator Carper for his 
interest in the Bay, as one of the Bay States, and Senator 
Capito and Senator Gillibrand.
    So we have synergy here in our Committee as it relates to 
the Bay, and we make progress. The Bay is in better shape today 
as a result of the Bay Program. The recreational values, 
economic values, land values, public health have all been 
improved.
    So I hope I will have a chance to ask you three questions. 
If I don't have enough time, I will do the rest for the record, 
dealing with the Chesapeake Bay program budget submitted by the 
Administration, the Chesapeake Bay Office, EPA's office in 
Annapolis, and the support for the Bay Journal.
    So first, in regard to the appropriation level. The 
Committee's fiscal year 2017 budget passed by Congress was $73 
million. Our appropriation committees are working up numbers 
for fiscal year 2018 that are comparable. This Committee, on a 
bipartisan basis, passed an authorization bill after the 
President's budget submission at $90 million. We need your help 
as an advocate. I remember our conversation, as the Chairman 
talked about, programs of which are State up, they are local 
government to the Federal Government, asking for the Federal 
Government's participation. That is the Bay Program. This is a 
local program in which the Chesapeake Bay Office is the glue 
that keeps it together so we have an independent observer and 
enforcer that we do what we say we are going to do.
    So can we get some help from you with OMB to get the money 
in the President's budget?
    Mr. Pruitt. I seek to be persuasive there, Senator, but 
sometimes I am not as persuasive as I endeavor to be. But as I 
mentioned to Senator Van Hollen during the appropriations 
process, I will say the same thing to you. It is important. I 
believe there has been tremendous success achieved through the 
program. I really appreciate Congress' response during the 
budgeting process, and I will continue to work with you through 
that to ensure that we address those issues that you have 
raised.
    Senator Cardin. Thank you.
    I want to talk about the Chesapeake Bay Office, the EPA's 
office, which is located in Annapolis, today. It is co-located 
with USDA, U.S. Forest Service, NOAA, USGS. And there is a 
synergy in this office.
    Now, as I understand it, there is some concern by GSA 
particularly in that it is located in the flood plain. So there 
may very well be a need to relocate; we fully understand that. 
But I would ask that you get engaged on this. I think keep the 
synergies with the other Federal agencies is important, and 
having a location near the Chesapeake Bay is symbolic and 
important.
    The location that EPA was looking at was to move the EPA 
office alone to Fort Meade, which is Federal facilities, and I 
can understand the cost issue of locating in a Federal 
facility. The problem is that it is not near the Bay. And 
second, it is behind the fence line, which for DOD has a 
significant cost. Because every person who visits the EPA 
office has to go through the security network, which is already 
overtaxed because of budget concerns and the number of tenants 
that are located at Fort Meade.
    Would you work with us to get a more reasonable answer to 
EPA's location with other agencies, so that we can accomplish 
the purpose of the Federal partnership with the other agencies?
    Mr. Pruitt. Absolutely, Senator. I was actually briefed on 
this in anticipation of our hearing. As we talked about it, if 
there are issues there at the current facility, we need to try 
to work through those issues to keep the facility there as best 
we can. So absolutely, you can count on my participation and 
cooperation with you and the other agencies.
    Senator Cardin. Understand that DOD does not want EPA 
behind a fence line. There is a cost issue there. So I just 
hope they would be sensitive to that, even though it may not 
come out directly of the EPA budget.
    Mr. Pruitt. I will.
    Senator Cardin. I appreciate that.
    The last thing, on the Bay Journal, we talk about this 
being a public-private partnership, the Bay. And it is; we have 
tremendous public support for the Bay programs in all of the 
jurisdictions here. And the significant part of the cost 
burdens are shouldered by the private sector.
    But public information about the Bay is very, very 
important. The leading source of that is the Bay Journal. It 
receives one-third of its funding through the EPA. And it is 
currently in a 6 year grant from the EPA, I think year 2. As I 
understand it, a decision was made to cut off the funding as 
early as February 1st. I would just urge you to give us time to 
make sure that this program continues, because it is an 
important part of our public-private partnership.
    Mr. Pruitt. It is under reconsideration, Senator, even in 
anticipation of this hearing. I think that was a decision that, 
I learned of that decision after the fact. I think it was 
probably a decision that should not have been made in the way 
that it was. So it is under reconsideration already.
    Senator Cardin. Thank you.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Cardin.
    Senator Moran.
    Senator Moran. Chairman, thank you for having this hearing.
    Administrator Pruitt, thank you for your attendance.
    Let me start with CRCLA. I have sponsored legislation in 
the past to exempt ag emissions or reporting requirements under 
CRCLA and EPCRA. And I support this Committee moving forward on 
a bill to provide certainty to ag producers.
    But in addition to the uncertainty and unnecessary burden, 
threat of citizen lawsuits that requirements would add to our 
farmers and ranchers, I am also concerned about privacy, 
privacy of farmers and ranchers. Most producers live on their 
farm or ranch, so any public disclosure about this, the data, 
private information is problematic.
    I secured report language in an Interior appropriations 
bill directing EPA to safeguard the privacy information. I 
would ask you, Mr. Administrator, if the EPA is required by the 
court to collect emission reports before Congress acts, what 
assurances can you give Kansas farmers and ranchers that any 
sensitive information required on those reports, including 
their farm location, would be protected from the public?
    Mr. Pruitt. You know, Senator, thank you, it's a very 
important area, as you indicate, with both EPCRA and CRCLA. 
There is more latitude that we have, probably under CRCLA 
statute, than we do under EPCRA presently. But we are looking 
at all options available to us to provide clarity. But also, I 
think opportunity for farmers and ranchers to know that as 
information is collected--if in fact it is--that privacy 
concerns will be addressed.
    So it is a very important issue and something that I think 
Congress does need to look at, very, very expeditiously. I 
think our team has been visiting with members of the Senate to 
that end, and I am hoping that we can address it legislatively. 
But until that occurs, we are taking all steps available to us 
to address these issues.
    Senator Moran. Thank you. If there are particular issues 
that you would like to raise with me, I would be happy to have 
this further conversation.
    Let me turn to another topic. Thank you for your efforts to 
approve an RFS pathway for the production of advanced biofuels 
from sorghum oil. Once that is finalized, the pathway will 
result in the production of up to 20 million additional gallons 
of advanced biofuels.
    The comment period on that proposed rule closed on Friday. 
I appreciate the progress being made, but want to continue to 
urge you to act quickly. You and I have talked about the 
pathway on the phone on two occasions. But we want to see that 
Kansas sorghum farmers and sorghum ethanol facilities can 
utilize and benefit from that pathway. Can you provide me with 
an estimated timeline for reviewing and submitting comments and 
finalizing the rule?
    Mr. Pruitt. You know, as you indicated, the period closed 
this past week. I am not aware of the number of comments that 
came in, Senator, so it is very difficult to say how long the 
process is. But I understand the urgency, and it is something 
we are focused upon it from a program office perspective.
    Senator Moran. Would you ask your team to get back with me?
    Mr. Pruitt. I will.
    Senator Moran. Thank you.
    And then finally, just a more general question, the voices 
of farmers and ranchers, it seems to me, are often left out of 
the decisionmaking process at EPA. I appreciate that you 
personally have developed a much stronger working relationship 
with the agriculture community. If in the future, we have 
different Administrations in charge of EPA, we may revert back 
to the old ways in which farmers and ranchers are once again 
left out of a seat at the table.
    Can you talk to me about the changes you have instituted at 
EPA that you believe will be carried forward beyond your 
tenure? What are the long term effects of your actions to make 
sure that agriculture is considered?
    Mr. Pruitt. Well, as you know, I have an agriculture 
advisor that interfaces with those stakeholders on an ongoing 
basis. That person, that position will continue post my time at 
the EPA.
    We also have something called the smart sector strategy. It 
is an effort on our part to work with those across various 
issues from air, water, chemicals, across all the things that 
we regulate to deal with issues prospectively and proactively 
as opposed to just responding to rules. So the ag sector is in 
that smart sector strategy. And so hopefully that will live on 
as well. But that is something that we have instituted.
    Senator Moran. Thank you, Mr. Administrator.
    Mr. Chairman, thank you very much.
    Senator Barrasso. Senator Booker.
    Senator Booker. Thank you very much.
    Thank you very much for being here, Mr. Pruitt. I echo the 
concerns, it really would be helpful if you were here more 
often.
    First and foremost, just talking about Superfunds, I was 
alarmed--I know this is a budget recommendation about the 30 
percent cut; this is an area that needs a lot more attention, 
and in the last Congress I asked for information about 
Superfunds, are we driving them down. But actually, they are 
increasing, the number of these contaminated sites are 
increasing in our country.
    And you know this, I am sure, but 11 million people--
including about 3 million children--live within a mile of a 
Superfund site. We have a lot of data now, longitudinal data 
coming out of Princeton, that shows that people living around 
Superfund sites, children born, have higher, significantly 
higher rates of birth defects, significantly higher rates of 
autism.
    But Superfund sites don't just contaminate the ground and 
the water. We know that these birth defects and serious 
problems could come from a lot of other contaminants in the air 
and the like.
    But there is an urgent risk from a study that I know you 
are familiar with, about a recent analysis that showed that 327 
Superfund sites are at risk of flooding due to some of the 
impacts that we see with the climate changing. Thirty-five of 
those flood prone Superfund sites are located in New Jersey, 
and it is a big concern in my State.
    Last week one of the EPA's top career Superfund staffers 
told the House Energy and Commerce Committee, ``We have to 
respond to this climate challenge. That is just part of our 
mission set. So we need to design remedies that account for 
that. We don't get to pick where Superfund sites are; we deal 
with the waste where it is.''
    So with this increased flooding that we are seeing, we 
really have the urgency--the threat--of these Superfund sites 
growing. So do you agree that we must design remedies for these 
Superfund sites, the 327 that right now are at imminent risk of 
flooding?
    Mr. Pruitt. Well, absolutely. In fact, we had a decision 
recently, Senator, down in Houston, called the San Jacinto 
site, that the dioxin that was in the inner harbor area, and 
the remedy that had been deployed for the last 10 years was 
simply covering with rocks on top of it. And we came in and 
provided a more permanent solution to the tune of $150 million.
    Senator Booker. I am sorry to interrupt you, and I am 
interested in hearing about Houston.
    Mr. Pruitt. But that is----
    Senator Booker. Yes, so if you could maybe get me in 
writing some of what you are trying to do to remediate these 
327 sites, and some sense of a timeline and the resources that 
might be needed if there needs to be congressional action.
    Mr. Pruitt. Yes.
    Senator Booker. Thank you very much.
    Have you directed your staff to do some kind of analysis on 
these sites?
    Mr. Pruitt. We have taken the Superfund portfolio, and we 
have as a priority to identify not just those 327, but of all 
the sites, what poses immediate risk to health. So across the 
full spectrum.
    Senator Booker. I would love to get, for QFR, sort of 
understanding your approach to this imminent health crisis.
    The next issue--we have talked about this--is environmental 
justice. It is an issue that I have been doing a lot more 
traveling on and seeing the most unconscionable realities in 
places like Alabama and North Carolina and other States. I am 
not sure--what I am really concerned about is how much you are 
taking into account the environmental burdens that are 
disproportionately impacting communities of color, indigenous 
communities, and low income communities.
    One example is on December 19th the EPA initiated a 
rulemaking process to revise protections provided to 
Agricultural Workers Protection Standard. The Worker Protection 
Standard is a primary set of Federal standards to protect over 
2 million farm workers, including half a million children, from 
the hazards of working with pesticides. Among the other 
problematic changes that I am seeing is the EPA is now 
considering lowering the minimum age requirement that prohibits 
children from handling dangerous pesticides if they are under 
18 years old. The protection was put in place because 
pesticides can increase the risk of cancer for children, whose 
brains are still developing, and more.
    I don't know if you believe this personally, but do you 
think that children handling dangerous pesticides is a good 
idea? This rule seems to be placed for a reason. You know 
probably about Executive Order 12898, which requires the EPA to 
identify and address disproportionately high and adverse human 
health effects that affects, disproportionately affects 
minorities. It is an Executive Order that looked at minorities 
and low income communities being disproportionately impacted. 
It is one of those Executive Orders around the issue of 
environmental justice. And again, these are communities 
disproportionately harmed.
    As my time is expiring, I really, and I will ask this for 
QFR, if I can just finish my question, you decided to move 
forward with this process to potentially weaken these 
agriculture protections that hold the notice that you have 
here, not only the requirements for minimum age, but also the 
designated representative requirement, which often, populations 
that might not be English fluent, having that designated 
representative is often their best chance of getting an 
advocate. I am really worried about the weakening of the rules.
    You cite the Executive Order, President Trump's Executive 
Order on deregulation. But you don't have anything in here 
about expressing concerns about disproportionate impact on low 
income folks and minorities. So just for the record, Mr. 
Chairman, and I recognize your indulgence here, would you 
please be able to provide for me in the record how you are 
considering the disproportionate impact on minorities when it 
comes to this advertised rule change that really raises alarms 
with me that these vulnerable populations will be 
disproportionately hurt, whether it is children that might be 
handling these chemicals, or the lack of advocacy that might 
exist for one of the more vulnerable populations we see in 
America, which is farm workers.
    Mr. Pruitt. Senator, as you know, that is a proposal. So we 
are in the process of taking comments on that now, so that many 
of those issues will be addressed and unpacked during that 
process.
    Senator Booker. Well, consider this my comment, sir.
    Mr. Pruitt. But on environmental justice generally, I want 
you to know, that as an example, East Chicago, with respect to 
the Superfund site there, I think you and I have talked about 
this during the confirmation hearing process. I very much 
believe that we need to make sure that as we make decisions on 
key issues, like East Chicago and the Superfund space, I spent 
time there listening to the stakeholders and making decisions 
one on one. So it is a very important aspect. We will get the 
information to you on the other.
    Senator Booker. Will you come to New Jersey, for some 
visits to the Superfund sites?
    Mr. Pruitt. Absolutely. Yes.
    Senator Barrasso. Thank you, Senator.
    Senator Ernst.
    Senator Ernst. Thank you, Mr. Chair, and thank you, 
Administrator Pruitt, for being here today and taking the time 
to answer our questions. I really do appreciate that.
    As you know, Americans do expect good governance from all 
of us. They expect accessibility, participation, 
responsiveness, and accountability. Since taking the reins at 
the EPA, you have shown that you are not afraid to engage with 
the American population. You just gave that example of going 
out, visiting those sites for Superfunds. You have also shown 
that you are willing to hear first-hand the concerns of 
Americans, while getting those that are affected an opportunity 
to engage in the decisionmaking process. So thank you for that.
    In addition to the Superfund issue that you just address, 
in August of last year you traveled to Des Moines, Iowa, and 
you met with over 50 stakeholders from across the ag industry 
at the Farm Bureau. We left that roundtable really encouraged 
by what we heard and what we were able to engage in, knowing 
that we do now have a partner in EPA.
    Under your leadership, EPA has taken necessary actions to 
walk back and repeal destructive Obama era rules, as discussed 
earlier today, like WOTUS and like the Clean Power Plan. Those 
are all things that have harmed our farmers and ranchers and 
our constituents at large in Iowa.
    Most importantly, you followed the rule of law and 
fulfilled the Administration's promise, protecting high quality 
American jobs by providing key commitments to maintain the 
letter and the spirit of the Renewable Fuel Standard. Today I 
want to thank you again on behalf of Iowa's farmers and rural 
communities.
    All of these actions have created certainty, they have kick 
started economic growth and generated countless jobs across the 
country. Your back to basics approach has helped Iowa's 
unemployment rate dip below 3 percent for the first time since 
the year 2000. So thank you for that.
    During a more recent trip to Iowa, on December 1st, you 
noted that EPA was actively exploring whether it possessed the 
legal authority to issue a nationwide RVP, or Reid Vapor 
Pressure waiver. Three months ago you sent a letter to a group 
of Senators, myself included, stating you would look at ways 
EPA could fix the restriction preventing E-15 from being sold 
during our summer months.
    Can you give me an update on where this stands, and do you 
today have clarification on whether or not the agency can 
extend the RVP waiver to ensure that our consumers have year 
round access?
    Mr. Pruitt. So, Senator, thank you for your comments. With 
respect to the RVP issue, as you know, it is not really a 
policy issue. It truly is a determination about the legal 
authority on whether it can be granted nationally or not. It is 
my understanding that Senator Fischer actually has some 
proposed legislation on that particular issue.
    Senator Ernst. Yes, she does.
    Mr. Pruitt. And we have talked about that. But the process 
internally, to determine the legal authority, continues. I am 
hopeful that we will have a conclusion on that soon. I 
mentioned that to--I made a second trip to Iowa in the fourth 
quarter of last year and shared that with stakeholders there. 
It is very important. And we are working to get an answer as 
soon as we can.
    Senator Ernst. Do you have a projected timeframe?
    Mr. Pruitt. No, but we can get that to you. I will get a 
follow up from this meeting and provide that to you.
    Senator Ernst. OK, because that will be very important to 
us as we move through a lot of discussions between the 
consumers, between those that are producing E-15 and of course, 
those in the Administration. So we look forward to having that 
answer very soon.
    Mr. Pruitt. Yes, Senator.
    Senator Ernst. Last August, while you were in Des Moines, 
you also touched on the potential benefit of moving Federal 
agencies or various departments out of Washington, DC, and into 
the countryside and across the country where an agency's 
decision are actually felt. This could be a relatively simple 
way to shift economic activity to hard pressed communities and 
prevent harmful rules and regulations from even being 
considered.
    With a more decentralized EPA, do you feel misguided 
policies, such as WOTUS, could have been prevented? And do you 
support relocating Government functions outside of the 
Washington, DC, metro area?
    Mr. Pruitt. Well, Senator, and Mr. Chairman and Ranking 
Member Carper and others, this is a very important question 
with respect to how we do business and how we deliver services 
as an agency. About half of our employees are located in those 
10 regions across the country, and half are here in Washington, 
DC. One of the things that ought to engage in as far as a 
collaborative discussion is whether it makes sense to locate 
operational units in each of the State capitals across this 
country to ensure that there is a focus on issues that are 
specific to that State, whether it is Superfund, air issues, 
water issues, the rest.
    So I really believe that this is a discussion, we have just 
begun this discussion internally. But I would welcome the input 
of members of this Committee as well as Congress on what makes 
sense there, as relates to better delivering services across 
the States and the country.
    Senator Ernst. And I appreciate that so much, 
Administrator. I do believe, having that easier access, the 
access closest to the people, is the best way that our Federal 
Government can work. Thank you very much.
    Thank you, Mr. Chair.
    Senator Barrasso. Thank you very much, Senator.
    Senator Duckworth.
    Senator Duckworth. Thank you, Mr. Chairman.
    I hope, Administrator Pruitt, that you would then continue 
to reconsider a shut down of the EPA office in Chicago, Region 
5, which, I believe there was a memo stating that you wanted to 
potentially shut down that office and move it to Kansas, 
leaving no EPA offices in the entire Midwest-Great Lakes 
Region.
    Mr. Pruitt. That is inaccurate, Senator.
    Senator Duckworth. Well, I hope that it stays inaccurate, 
and that you don't shut down that office.
    Mr. Pruitt. I am not sure where that came from.
    Senator Duckworth. It came from a memo from the EPA.
    Last month, before the House Energy and Commerce Committee, 
you said regarding lead in our drinking water, that it is one 
of the greatest environmental threats that I think we face as a 
country. You have repeatedly referenced your war on lead and 
said that you wanted to eradicate lead poisoning in the next 10 
years, which was music to my ears.
    During your nomination hearing I had asked you if you knew 
what the safe blood lead level was for children. You had stated 
at the time that you were not familiar with the latest science 
on lead exposure. Given your comments on your war on lead, I 
take it since then you have familiarized yourself with what the 
safe blood lead exposure is for children. Can you state for the 
record what that level is?
    Mr. Pruitt. Well, EPA has a level of 15 parts per billion. 
There are States that are considering lowering that. But from 
my perspective, Senator, as I indicated, I don't think there is 
a safe level, and we need to eradicate it from our drinking 
water.
    Senator Duckworth. The right answer is zero, according to 
scientific literature. So it would be wonderful if you could 
take what your opinion is and actually apply it at EPA. I am 
really glad that you have reviewed the science literature since 
we last spoke a year ago; the last time we saw you in this 
Committee, you said you didn't know.
    Unfortunately, your rhetoric doesn't match your actions. 
Over the last several months, the Administration has taken 
several steps that will make it harder--not easier--to limit 
lead exposure. For example, the EPA had planned to update the 
Lead and Copper Rule in 2017, and finalize it in 2018 under the 
Obama administration. Since taking over as Administrator, you 
have instead decided to kick the can down the road by at least 
2 years. And now, during your war on lead, we can expect 
updates to the rule not in 2018, but 2020.
    This doesn't sound much like a war on lead. Yes or no, will 
you direct EPA to finalize this rule in 2018 instead of waiting 
2 whole years, as recently announced?
    Mr. Pruitt. Yes, Senator, I think that, as you know it is a 
1991 lead and copper rule, it has been in just----
    Senator Duckworth. No, no, no. Yes or no. Yes or no. Yes or 
no.
    Mr. Pruitt. Mr. Chairman, may I ask----
    Senator Duckworth. I am happy for you to elaborate in 
writing for the record, I just don't have much time.
    Is that all right, Mr. Chairman, if he would elaborate in 
writing for the record?
    Senator Barrasso. We will take this as a question for 
response and----
    Mr. Pruitt. It is. And the agency has been working for a 
decade to update the rule, Senator.
    Senator Duckworth. OK, thank you.
    Mr. Pruitt. And I can tell you, it is a priority for this 
Administration to update the rule.
    Senator Duckworth. Well, then a 2 year deal is not 
acceptable. Because every day I have children who are exposed 
to lead, and they don't have 700 days to wait. The President's 
fiscal year 2018 budget proposal, which outlines the 
Administration's 10 year policy priorities, called for the 
elimination of EPA's lead risk reduction program that trains 
contractors and educates the public about safely removing lead 
paint from homes. The budget, in reality, also cuts millions of 
dollars in grant money to States and tribes to address lead 
risk.
    This does not sound like a war on lead. Again, given your 
war on lead, your words, yes or no, will you commit to 
prioritizing this program and make sure it is fully funded?
    Mr. Pruitt. We are working to update the lead and copper 
rule expeditiously. We are also working with this body, 
hopefully, to engage in an infrastructure spend on eradicating 
lead from our drinking water.
    Senator Duckworth. What about the EPA's lead risk reduction 
program that the President attempts to cut in his fiscal year 
2018 budget, actually eliminates?
    Mr. Pruitt. It is a point of emphasis for us to update the 
rules and take an aggressive posture to eradicate lead.
    Senator Duckworth. So you will not fight to keep the EPA's 
lead risk reduction program, is what you are saying?
    Mr. Pruitt. I didn't say that, Senator.
    Senator Duckworth. So you will fight to keep the program, 
as opposed to the President's budget, which seeks to eliminate 
it?
    Mr. Pruitt. We will continue discussions with this body to 
properly fund it, as you decide.
    Senator Duckworth. Will you speak with the President and 
say, don't cut this program? His budget eliminates it.
    Mr. Pruitt. Well, as you know, your marked up version of 
the budget is $7.9 billion. So that is not in the marked up 
budget, I think.
    Senator Duckworth. So you are not going to fight for the 
EPA's lead risk reduction program. For something that is a 
priority for you, remember, war on lead, get rid of it in 10 
years, not enough to fight for it.
    Senator Pruitt. We will continue to work with the agency to 
fund that, yes.
    Senator Duckworth. OK.
    I am also alarmed to see that the Trump budget slashes 
funding for the Office of Ground and Drinking Water, which is 
responsible for implementing our lead and drinking water 
program. How about this priority? Will you prioritize this 
program to ensure that it is fully funded? The Ground and 
Drinking Water Program, the Office of Ground and Drinking 
Water. And surely, the Office of Ground and Drinking Water is 
consistent with your back to basics vision for EPA.
    Mr. Pruitt. Very important, and we will continue the 
dialogue with Congress on that issue.
    Senator Duckworth. What about the White House? Will you 
fight for this program?
    Mr. Pruitt. I will continue to work with this body to make 
sure----
    Senator Duckworth. OK, I am going to have to take that as a 
no, because you are not answering my question.
    I am out of time. I yield back, Mr. Chairman.
    Senator Barrasso. Thank you, Senator.
    Senator Inhofe.
    Senator Inhofe. Thank you.
    I get the impression they don't like you.
    [Laughter.]
    Mr. Pruitt. At least one.
    Senator Inhofe. Well, anyway, you have been doing a great 
job.
    I do have something for the record I wanted to put in, Mr. 
Chairman. It is an article out of the Oklahoman. It talks about 
all the improvements in the economy that are coming with 
getting rid of some of these very punitive regulations that we 
have been going through. I want to ask unanimous consent this 
be made a part of the record.
    Senator Barrasso. Without objection, so ordered.
    [The referenced information follows:]
    
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Carper. I will ask unanimous consent to insert for 
the record a report from Moody's which suggests something a bit 
different. Thank you.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Inhofe. OK. I walked in just at the tail end of 
somebody else's who is not here now inquisitions of you talking 
about the regulations. You know, I remember so well, because I 
was all during the Obama administration, I was either the 
Chairman or the Ranking Member of this Committee. And that guy 
sitting right behind you and I used to look at what was 
happening to our economy, which is in the process of being 
reversed right now. But he was implying that some of the 
poorest, the most vulnerable people are the ones who are 
being--that we are trying somehow, or that you are trying 
somehow, to punish. And I want to just remind you that we had a 
guy, I remember so well, Harry Alford, he was the President of 
the National Black Chamber of Commerce, he provided some of the 
most powerful testimony that I have ever heard when it comes to 
the effects of the Clean Power Plan and some of the other 
regulations, but he was referring specifically to that, would 
have on the Black and Hispanic poverty, including job losses 
and increased energy costs when it comes to regulations that 
you have been quoted as saying, and who benefits, the elites, 
the folks who can least afford those kinds of decisions pay the 
most.
    So I would ask you, how is the EPA working to ensure that 
the most vulnerable communities are being considered and that 
the agency's cost benefit calculations are accurately 
portraying realities on the ground?
    Mr. Pruitt. Well, Senator, good morning to you. I think 
your question goes to the heart of the cost of electricity, 
largely, and our power grid. And there are issues around that 
that obviously go to cost. We can't consider cost in our NAAQS 
program, but we can these other provisions that impact the cost 
of electricity. So we endeavor to make sure that our cost-
benefit analysis is considerate of those things, and to make 
sure that we are making informed decisions as we finalize our 
rules.
    Senator Inhofe. Well, he was very emphatic as to who is 
paying the price on these. And I think sometimes that previous 
Administration forgot those individuals. There are people out 
there paying all they can pay to try to keep--try to eat and 
keep their house warm. And that is one of the things that we 
have observed.
    I was happy to see that you ended the practice of sue and 
settle. Oklahoma has been on the wrong end of this tactic used 
by the Obama administration, which was nothing more than a way 
to create regulations behind closed doors without public input 
or even input from affected parties. Can you explain more about 
how you see this being a positive environmental outcome?
    Mr. Pruitt. Yes. The sue and settle practice I mentioned in 
my opening comment, Senator, with respect to regulation through 
litigation, it is something that is not unique to the EPA. It 
is something that has happened at other Federal agencies. 
Justice is also involved in a reform effort there. But I think 
what is important to note that as we engage in regulation, 
regulation is intended to be--there are laws of general 
applicability. And when you go into a litigation, and you 
negotiate a consent decree with one party that affects others, 
that is not transparency, and it is also not, I think, 
fundamental to the APA and the opening process to rulemaking.
    So that was the motivation in addressing the sue and settle 
phenomena, the regulation through litigation. We have stopped 
that at the agency. That doesn't mean that we won't ever enter 
into consent decrees or settle cases. It just means as we do it 
we will publish those settlements up to 30 days for people to 
provide comment and interested parties that want to be aware of 
that can be aware of it and participate as necessary.
    Senator Inhofe. Well, Mr. Pruitt, I wasn't here during your 
opening statement, so I missed it. That was a very good 
explanation.
    Let me--in an interview with the National Review last 
month, you stated that we still have a lot of work to do on 
clean air. But that was for the last decade. The EPA was so 
focused on CO<INF>2</INF> that we have let a lot of other 
things slide. From my view as Chairman and the Ranking Member 
of this Committee for the Obama administration, I agree with 
you that his singular focus on regulating a naturally occurring 
gas as a pollutant came at a heavy cost. Now that you have been 
Administrator for nearly a year, what areas of environmental 
protection were neglected by the previous Administration? Do 
you have any that come to your mind?
    Mr. Pruitt. Well, the attainment issues specifically. We 
still have 40 percent roughly of our country that live in areas 
that don't meet the air quality standards, about 120 million 
people. I think as I look at the investment, for instance, 
counties that are making decisions collecting data, a lot of 
times we are using model data as opposed to monitored data. And 
that is primarily for a cost issue. So I think as we talk about 
the budget through this process, I think it is important to 
maybe look at ways that we can help States and counties put 
more monitors in place to get real time data to ensure that we 
are making real time decisions in air quality. That is 
something I would love to work with Congress to achieve.
    Senator Inhofe. Yes.
    Well, right now I am chairing the Senate Armed Services 
Committee, and I have to get back to that. But I appreciate the 
fact that you are here. But why in the world did you agree to 2 
and a half hours?
    Senator Barrasso. That is an end point, but we possibly 
will be done before that, Senator Inhofe. If you have a chance 
to come back, come back.
    Mr. Pruitt. Senator, you used to blame Ryan Jackson for a 
few things. I will do the same.
    [Laughter.]
    Senator Inhofe. I hope you get further than that in.
    [Laughter.]
    Senator Barrasso. Senator Whitehouse.
    Senator Whitehouse. Thank you, Chairman.
    Mr. Pruitt, welcome to the Committee.
    Let me start by asking unanimous consent to put three 
documents in the record. One is a report entitled Abandoning 
Science Advice by the Center for Science and Democracy. With it 
are two internal documents from the EPA that chronicle how 
political appointees are stacking the scientific advisory 
committees with industry representatives, in this case the 
Clean Air Scientific Advisory Committee.
    Senator Barrasso. Without objection.
    [The referenced material follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Whitehouse. Thank you.
    Mr. Pruitt, you were confirmed about a year ago, in 
February. And about a year before that, in February 2016, you 
went on a radio talk show at a radio station called KFAQ in 
Tulsa. The show's host is a man named Pat Campbell. I don't 
know if you remember that.
    Mr. Pruitt. I appeared on that program a few times. So I 
don't remember the particular program you are referencing.
    Senator Whitehouse. Well, the reason I mention it is that 
we have a transcript of the interview that you provided. And I 
don't know if this is what you had in mind when you said you 
were interested in reaching common ground. But I can assure you 
that there are a great many Americans who share the concerns 
that you expressed in that interview.
    The first one is this one; you told Mr. Campbell, ``I 
believe that Donald Trump in the White House would be more 
abusive to the Constitution than Barack Obama. And that is 
saying a lot.'' Do you recall saying that?
    Mr. Pruitt. I don't, Senator.
    Senator Whitehouse. Would you----
    Mr. Pruitt. And I don't echo that today at all.
    Senator Whitehouse. I guess not. We have--I am having 
technical difficulties. So anyway, that was one statement. Then 
the interview continued, and Mr. Campbell said the following: 
``Everything that we loathe and detest about Barack Obama and 
the abuses of power, Donald Trump is the same thing except he's 
our bully.'' Your answer to that, ``That's right.''
    As the interview continued, Mr. Campbell talked about his 
dad, who, as I recall from the interview, was a veteran and was 
now elderly, had served our country. Mr. Campbell said, ``I had 
a conversation with my dad not long ago.'' And he went on to 
say, ``He summed up Donald Trump in one word. He said''--this 
is Mr. Campbell referring to his dad--``He said he's 
dangerous.'' You said, ``You know, your dad is very astute.''
    We are going to hear from the President tonight. I think 
the President is going to be speaking to a country in which 
millions of people share your concerns of February 4th, 2016, 
about a President who you believed then would be abusive to the 
Constitution, a bully and dangerous.
    In my minute remaining, I would like to ask you about your 
schedule, because you have an unusual propensity for not 
releasing what is going on on your schedule. I direct you to 
Friday, May 5th, when you spent the day in Tulsa, Oklahoma. 
That night you were scheduled to give a keynote address at a 
fundraiser for the Oklahoma Republican Party. Because of the 
Hatch Act, you canceled that event. You are not allowed to go 
and do fundraising for parties in the position that you are in. 
That was the original reason for your trip to Tulsa that day.
    The only thing that shows on your schedule for that day is 
lunch with a guy named Sam Wade. It seems to me like it is an 
awful long way to go at taxpayer expense to Tulsa for lunch 
with one guy. Could you please let us know what all else you 
did that day? Specifically, did you go to the Oklahoma 
Republican Party fundraiser? And because my time is up, that 
can be a question for the record.
    Senator Barrasso. Thank you, Senator Whitehouse.
    Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman.
    Mr. Chairman, I have a letter that the Arkansas Department 
of Environmental Quality sent me yesterday in support of EPA's 
recent decision to approve Arkansas' revised Regional Haze 
State Implementation Plan. To quote the letter, ``Arkansas 
applauds the EPA's recent improvements in regard to fostering 
increased cooperation with the States in order to achieve 
environmental goals in a sensible and practical manner.'' I 
would like unanimous consent to enter that.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Boozman. Thank you, Mr. Chairman.
    Administrator, I was very happy to see the EPA approved 
Arkansas' revisions to the Regional Haze State Implementation 
Plan. Many in Arkansas are thrilled that we now have an EPA 
that is willing to listen to the States and are excited to 
proceed toward the goal of improving air quality.
    In the past we have had a situation where the EPA wanted to 
hear input as long as the State agreed with them. If not, then 
they got themselves in trouble. Can you explain your approach 
to cooperative federalism and the change that we are seeing in 
that regard?
    Mr. Pruitt. You know, I think, Senator, with respect to the 
Regional Haze Program, I appreciate your comments. Arkansas has 
worked very diligently to submit a plan that is approvable 
under the statute. I think that would be something I would 
highlight for you, is that the agency needs to take a more 
proactive approach working with States in submission of plans 
to actually recognize their expertise and resources at the 
local level to achieve those outcomes. And then help provide 
clarity in the timing as far as getting that done.
    I think in the past we had an effort of displacing State 
authority there, and issuing Federal implementation plans at 
the expense of those State plans. I think the opposite should 
be true. We should work with those States, let them adopt the 
plans that are particular to the issues that they face, and 
provide the type of support that helps them achieve that.
    Senator Boozman. Good. So working with all the States in 
that regard. What else, since your confirmation, have you done 
to reach out to other stakeholders besides the States?
    Mr. Pruitt. Well, I think one of the things that is so 
different, DNRs, EEQs across the country, Departments of 
Natural Resources or Departments of Environmental Quality, 
obviously vary by State. But their interaction with the 
Governors is different. So we have worked very diligently with 
Governors--both Democrat and Republican Governors--to ensure 
that issues that the State faces, they are aware of those 
issues, that, from our perspective, and we are learning from 
them, and making sure that their respective executive branch 
agencies are working with us to achieve that, too.
    So it is an effort to work with Governors in addition to 
those agency partners that we have worked with for a number of 
years.
    Senator Boozman. Very good. The folks on the left have 
spent a lot of resources selling a narrative that you've locked 
career employees out of meetings, don't heed their input when 
considering the direction of the EPA. Are these allegations 
accurate? And----
    Mr. Pruitt. They're inaccurate. They're inaccurate. You 
know, some of the things that I have heard with respect to not 
bringing notepads, I am very encouraging of the folks taking 
notes during meetings. Because I forget things often, and we 
want to make sure we are keeping track of where we are heading 
on issues. So I am not sure where those things came from, but 
they are in fact inaccurate.
    Senator Boozman. What does that, again, these false claims, 
what does that do to morale in the office?
    Mr. Pruitt. Well, look, I think that we had a lot of work 
to do, a lot of opportunities to do good things, and we try to 
stay focused on that. I try to stay focused myself, and then 
working with those career employees; yesterday we had our SES 
conference that I attended. I talked about the importance of 
establishing goals and metrics, keeping track of those, and 
celebrating successes. And I think for too long, the agency has 
not been willing to state goals, where are we going to be in 
air attainment 5 years from now, setting that out there on the 
horizon and working to achieve that.
    And I think that is something, both in the water space, 
across all the program offices, we need to do better at.
    Senator Boozman. Very good.
    I would like to just reinforce Senator Inhofe's words, 
discussion about sue and settle, how important that is. And can 
you again tell us how that is actually helping the environment 
versus hurting the environment and getting rid of that?
    Mr. Pruitt. Primarily, when you, again, enter into a 
negotiation through litigation and a consent decree comes out 
of that that doesn't involve voices from across the country, it 
is short shrifted. For instance, there have been examples where 
States have endeavored to intervene, and those discussions are 
part of the core process and have been denied. And then an 
agreement is reached, and then it is foisted or forced upon 
those States.
    So it is kind of subverted, the voice of those 
stakeholders, at the State level, among others. That is not a 
good way of doing business.
    Senator Boozman. Thank you very much.
    Senator Barrasso. Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, very much.
    Earlier, you did not answer Senator Carper on whether EPA 
performed an analysis of the health impacts of your decision 
last week to allow significantly more amounts of extremely 
dangerous pollutants to be put into our air. Your decision 
means that industrial facilities like power plants, or chemical 
facilities, or hazardous waste incinerators will no longer be 
required to use state of the art technology--the gold 
standard--to reduce these harmful emissions.
    This should be a very simple answer. There are 187 
dangerous pollutants covered by this policy that you have 
rolled back. Let's just go through a few of these. Arsenic. Do 
you believe that more arsenic pollution is harmful to the 
public?
    Mr. Pruitt. Yes.
    Senator Markey. Do you believe that more mercury pollution 
is harmful to the public?
    Mr. Pruitt. I do.
    Senator Markey. Do you believe that more lead pollution is 
harmful to the public health?
    Mr. Pruitt. Yes, Senator.
    Senator Markey. Do you believe that more benzene pollution 
is harmful to the public health?
    Mr. Pruitt. Yes, sir.
    Senator Markey. Well, your decision allows more of these 
pollutions, more of these toxics to go into the atmosphere, to 
go into the air, to go into the water, to go into the 
environment. Children will be exposed to these pollutants; 
seniors will be exposed to these pollutants. We should have a 
gold standard of pollution control in this country. That is 
what the EPA should ensure is on the books.
    But you are going to replace the gold standard with a lead 
standard. And that will not be good for the health of the 
children in our country. The President has a slogan of MAGA. 
But here it is going to mean Make Arsenic Great Again.
    So this is not good for our country. It is not where we 
should be heading. That decision is an historically bad one 
from last week. I urge you to reconsider it immediately.
    On the question of fuel economy standards, you say that you 
are reviewing them right now in response to Senator Carper. The 
head of EPA's Air Office, Bill Wehrum, recently said that he 
has no interest whatsoever in withdrawing California's ability 
to regulate from a good, solid public policy standpoint; the 
very best outcome for all of us to achieve is one national 
program. Do you agree with that?
    Mr. Pruitt. One national program is essential.
    Senator Markey. One national program is essential. And do 
you support, once again, the maintenance, the retention, of the 
California waiver, which Massachusetts uses, and many other 
States also use? Do you----
    Mr. Pruitt. California, yes, there are ongoing discussions 
with CARB in California, the agency that oversees these 
matters. It is our hope that we can come to a resolution as we 
visit about these standards in April of this year. Senator, 
federalism doesn't mean that one State can dictate to the rest 
of the country, that we recognize California's special status 
on the statute. And we are working with them to find consensus 
around these issues.
    Senator Markey. Well, Massachusetts is part of that waiver, 
as are the States of many of the members of this Committee. And 
we want to retain that ability to have the highest standards 
possible. Yes, we do want there to be harmonization. It 
happened under the Obama EPA and Department of Transportation. 
But we are increasingly fearful that there will be a rollback 
of the fuel economy standard.
    So there is one thing that I would like you to keep in 
mind. We still import 3 million barrels of oil a day from Saudi 
Arabia, Libya, Kuwait, Iraq, Qatar. We should not be importing 
oil from these countries if we can increase our fuel economy 
standards. Fracking is reducing our dependence, but so is the 
fuel economy standard.
    And we cannot have no retreat. Because we are sending young 
men and women in uniform over to the Middle East to continue to 
protect that oil coming in from the Middle East, we have a 
moral responsibility to put the fuel economy standards of our 
vehicles at the highest possible level. I just want the EPA and 
the Trump administration to understand that these young men and 
women are over there, not exclusively, but in part to protect 
that supply of oil.
    We will never be energy independent; we will never produce 
all the oil that we need in our country. At 10 million barrels 
a day, 13 million barrels a day, we are still consuming 19 
million or 20 million barrels a day. Fuel economy standards 
will back out 2.5 million barrels a day. We should honor that 
commitment, and you should honor what Massachusetts and 
California and the other States want to accomplish.
    Mr. Pruitt. If I may, Senator, I think the issue that you 
have raised is important, but also the harmonization with DOT. 
As you know, there are joint equities there between DOT and 
EPA. We are working diligently with them to harmonize these 
efforts, again, to provide clarity on these issues. So it's 
State, it's federalism, and it's also interagency at the 
Federal level.
    Senator Markey. The most important equities are those young 
men and women we send over to the Middle East to protect that 
oil. We should just ensure those standards stay as high as 
possible.
    Senator Barrasso. The Senator's time has expired.
    Senator Carper.
    Senator Carper. I will ask unanimous consent, if I could, 
just following on to Senator Markey's comments and questions, 
to submit for the record if I could, Mr. Chairman, the Bush 
Regional Record, as the Bush Regional office concern stated 
several years ago with respect to air toxic rollbacks. Thank 
you.
    Senator Barrasso. Thank you, Senator Carper.
    [The referenced information follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. And I would like to use a little of my 
time to interject and respond to comments on the EPA's once in, 
always in policy. Because in 2017 the State of Connecticut 
supported the EPA's decision to withdraw the policy. As a 
matter of fact, the State of Connecticut said, ``Such a policy 
discourages pollution prevention efforts and often forces 
business owners with very small actual hazardous pollutant 
emissions to expend significant resources not consistent with 
air emission and health benefits achieved. State and Federal 
regulatory agencies.'' This is the State of Connecticut going 
on, ``State and Federal regulatory agencies also must expend 
significant resources on compliance and enforcement efforts for 
these facilities with small actual emissions often gaining 
little in air quality improvement.''
    So I ask unanimous consent that the entire statement be 
included in the record.
    [The referenced information follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Senator Rounds.
    Senator Carper. If I could just say, it would be 
interesting to know if the current Governor of Connecticut 
shares those same views. We will have to find out. Thank you.
    Senator Barrasso. Senator Rounds.
    Senator Rounds. Thank you, Mr. Chairman.
    Administrator Pruitt, Senator Markey and I actually served 
together for the last 2 years on a subcommittee with oversight 
of the EPA. One of the items that I think we would both agree 
on, coming from different political approaches, was still the 
idea that sound science was going to be critical in our 
discussions.
    I would like to go back just a little bit; we have had 
Senator Markey make his statements and express his concerns 
versus the existing, as he identifies it, a gold standard. But 
I didn't hear the opportunity for you to respond and to share 
your thoughts on this. I would like to give you an opportunity 
to share your thoughts and perhaps analyses on the decision 
that you have made and the reasoning behind it.
    Mr. Pruitt. Yes, the Chairman, I think--thank you, 
Senator--and I think the Chairman just made reference to that, 
too, with his comments. The once in always in decision was 
really about incentivizing investment by a company to achieve 
their outcomes for the environment. Under statute, there are 
entities called major emitters. All this policy says is those 
major emitters make investment and achieve the outcomes to 
improve air quality, or whatever their objective is, is they 
meet those standards, they ought to be rewarded and not have to 
be treated as a major emitter if they are no longer in that 
category.
    Senator, the issue is, if you are a company, and you 
invested hundreds of millions of dollars to improve outcomes, 
and you were considered a major emitter before, you ought to be 
considered a minor emitter under the statute, once you make 
those investments. This rewards investment and conduct to 
achieve better outcomes.
    So my response to you, with respect to all those 
pollutants, is absolutely what I believe, that I believe that 
we can achieve better outcomes through this kind of policy by 
rewarding investment and encouraging companies to do that.
    Senator Rounds. I'd like to take another step down that 
same line, and that is with regard to sound science. We had a 
lot of discussion about the need to return back. Many of us 
feel that in some cases, on either side of the aisle, we either 
win or we lose when more information is interjected. I think we 
take our chances, and we look at the best sound science 
available to us.
    Would you explain the steps that you have taken to make 
sure that the agency decisionmaking is based on the most 
current, best available science? Can you elaborate on how your 
new guidance on the role of scientific advisory boards and 
conflict of interest will enhance the use of sound science at 
the agency?
    Mr. Pruitt. As you are aware, Senator, and members of the 
Committee are aware, we have 22 advisory committees that are at 
the agency: the Science Advisory Board, the CASAC, BOSC, the 
Board of Science Counselors are 3 of those 22. And members of 
those committees historically have been able to serve while 
receiving grants and also providing independent counsel under 
the statute to the agency as far as rulemaking. That is 
something from my perspective that is not consistent with 
providing independence, if they are receiving a grant, and 
there are oversight responsibilities at the agency with those 
members that serve on those advisory committees at the same 
time that they are rendering counsel on the others.
    So we established a policy that if you want to continue 
receiving a grant providing hope to the agency on that side of 
the ledger, you can continue or you can continue serving as a 
member of the committee, but you can't do both. Because that 
goes to the independence of the review with respect to the 
integrity of that process. So that was the heart of the policy 
initiative that we adopted.
    Senator Rounds. Thank you.
    There has been a lot of discussion back and forth about 
biofuels and all sorts of items like that. I am just curious--I 
have focused on, particularly in South Dakota, corn ethanol is 
a critical part of our economic activity. We also think we have 
a long term opportunity to add corn ethanol as a very valuable 
octane enhancer with regard to liquid fuels.
    I am just curious, I think it is an item that I suspect you 
spend some time on with regard to all of those issues. I would 
just like your thoughts. Are we reasonable in a discussion long 
term about the viability and the need for octane enhancements 
with regard to fuel standards and so forth coming of age?
    Mr. Pruitt. I think this goes a little bit to the questions 
that the Senator just raised on fuel efficiency standards, on 
CAFE review. I think the agency long has not been considerate 
of the fuel side of the ledger as far as how to achieve better 
outcomes. High octane is one of those. Europe has looked at 
that rather extensively, implementing that rather extensively. 
We have not. It has been one of the design element of the 
vehicles, which obviously is important. The fuel side is 
equally important.
    So as we go through the CAFE process, we are in fact 
looking at those kinds of issues.
    Senator Rounds. OK, and that includes the ability and the 
most efficient ways of delivering octane from any one of a 
number of different sources, including ethanol in the future.
    Mr. Pruitt. Yes. We are agnostic about the source. It is 
more of just a high octane kind of approach generally.
    Senator Rounds. Thank you.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Rounds.
    Senator Merkley.
    Senator Merkley. Thank you, Mr. Chairman.
    During the time that you have now been Director, the agency 
has taken 15 actions related to air quality. Fifteen of those 
diminish air quality, and zero of them improve air quality. And 
yet I heard from you quite a bit today about your interest in 
air quality. But right now you are zero for 15.
    So my question is, how many of those 15 actions were 
supported by the American Lung Association, which has made air 
quality a significant part of its advocacy effort?
    Mr. Pruitt. I am not sure, Senator.
    Senator Markley. Well, it is zero. As you would expect, 
since 15 actions have diminished air quality. And how many of 
them have been supported by the American Academy of Pediatrics?
    Mr. Pruitt. I am not sure.
    Senator Markley. Well, do you want to take a guess?
    Mr. Pruitt. I am sure you will advise me.
    Senator Markley. Well, if I was giving you advice, I would 
say, actually run the agency to improve air quality, rather 
than to diminish it in areas such as ozone and smog and methane 
and mercury. And the list goes on and on.
    Mr. Pruitt. One of those issues, Senator, is an example on 
ozone. We are implementing the 2015 standard as we speak. On 
methane, I have indicated that----
    Senator Markley. Well, I will have you submit your 
extensive answer for the record, because I know you are very 
good at filibustering, but we would like to cover as much 
material for the public as possible. I will note on ozone, you 
delayed defending and complying with the ozone rule on April 
7th, 2017.
    But let's turn to asbestos. To my colleague, you answered 
that there were a number of items you thought didn't contribute 
to health when you increased the amount of pollution. How about 
asbestos? Have you increased the amount of asbestos pollution? 
Does it contribute to Americans' health?
    Mr. Pruitt. No. It is something we ought to seek to do all 
we can to eradicate.
    Senator Markley. Thank you. That really is supported by the 
scientists. The Center for Disease Control reports that 
malignant mesothelioma is a neoplasm associated with 
occupational environmental inhalation exposure to asbestos. It 
makes sense that you would have that position. Patients have a 
median survival of approximately 1 year from time of diagnosis.
    So in this particular area, the President has been very 
clear about his position, which is the opposite of your 
position. So I just want to be absolutely clear. You disagree 
with the President when he says that asbestos is 100 percent 
safe?
    Mr. Pruitt. Well, disposal issues with respect to asbestos 
I think are some of our initial challenges, and we are working 
through those.
    Senator Markley. I am not asking about disposal. I am 
asking if you agree or disagree with the President when he says 
asbestos is 100 percent safe.
    Mr. Pruitt. Senator, I think I have indicated to you that 
asbestos, it is actually one of the priority chemicals we are 
reviewing with respect to the TSCA program.
    Senator Markley. Thank you. And in that regard, there is a 
group that is a major importer of asbestos into our country; 95 
percent is imported. It is seeking an exemption from the 
asbestos standard, whatever that might be that eventually comes 
out of the EPA. Are you inclined to grant an exemption for the 
group that imports 95 percent of the asbestos into the United 
States?
    Mr. Pruitt. Senator, that is something I would have to look 
into, the status of that petition. I am not familiar with the 
status at this time.
    Senator Merkley. OK. But conceptually, the standard doesn't 
mean much if 95 percent of the imports of the asbestos is 
exempted from the standard.
    Mr. Pruitt. Yes, as I indicated, I would have to check on 
the status and report back to you.
    Senator Merkley. Well, I encourage you also to look at 
Canada and to look at Brazil, which have reached the logical 
conclusion, where we started from, that asbestos is hazardous, 
and they have banned it. Also, there is an emphasis at the EPA 
now to only look at the production of new items that have 
asbestos in them, while ignoring the vast amount of asbestos 
that is already in the environment and causing significant 
problems, because it frays, and it therefore causes 
contamination. Containment is not complete.
    Will you commit to taking on asbestos, both with the new 
asbestos that is being put into products but also in terms of 
the existing asbestos?
    Mr. Pruitt. It is one of those priority chemicals that we 
are reviewing under TSCA, Senator, and I can tell you that the 
legacy issues that you make reference to is very important. 
That is the reason I mentioned disposal earlier.
    Senator Merkley. A recent report noted that although it is 
one of the priority chemicals that it and nine other of the 
priority chemicals are being slow walked in the agency. Are you 
slow walking the priority pollutants for Americans?
    Mr. Pruitt. No, Senator. As you know, under the TSCA law, 
we had obligations last year to adopt three rules consistent 
with implementation. We achieved those. We have actually added 
resources in the office to address a backlog of chemical 
review. So no, it has been an absolute priority during our 
first year.
    Senator Merkley. Well, outside observers are finding the 
opposite. So I do hope that we will get details from you 
showing that in fact you are working hard. This is a singular 
bipartisan accomplishment of this Committee, getting the TSCA 
Act passed. And it would be nice to see it implemented 
aggressively.
    Thank you.
    Senator Barrasso. Thank you, Senator Merkley.
    Senator Van Hollen.
    Senator Van Hollen. Thank you, Mr. Chairman.
    Thank you, Administrator Pruitt. I appreciate the exchange 
you had with Senator Cardin on the Chesapeake Bay. I am still 
hoping you will prevail upon the Administration to put the $73 
million or more in for the Bay program.
    You would agree, would you not, that it is important that 
EPA's decisions be based on the facts, be based on merit, be 
based on the law and not on politics? Would you agree with 
that?
    Mr. Pruitt. Absolutely, Senator, in the sense that as we do 
rulemaking, as you know, we have to build a record. And the 
record is based upon----
    Senator Van Hollen. I don't mean just that, though. I mean 
in your procurement, in your contracts, wouldn't you agree it 
needs to be based on the law and the merits, not on politics?
    Mr. Pruitt. I believe generally what you are saying, yes.
    Senator Van Hollen. Generally?
    Mr. Pruitt. Yes. I am not--I meant----
    Senator Van Hollen. Well, it disturbed me to find this 
report back in December, it was headlined ``EPA Contractor has 
spent past year scouring the agency for anti-Trump officials.'' 
In an exchange with one of my colleagues on the Republican side 
who asked you about EPA employees and morale, you said you 
don't think there is any reason for bad morale. Are you 
familiar with this article?
    Mr. Pruitt. I am not.
    Senator Van Hollen. It is a New York Times piece.
    Mr. Pruitt. I am not, Senator.
    Senator Van Hollen. Well, you should be, because Senator 
Whitehouse and Senator Harris have written you a letter about 
it that you haven't responded to. What the article stated was 
that the EPA contracted on a no bid basis with an entity called 
Definers Public Affairs. Are you familiar with that entity?
    Mr. Pruitt. I am familiar with the clipping service that we 
have. I think that is what that is. So I am familiar with that 
entity.
    Senator Van Hollen. That is right. So this is a clipping 
service, the co-founders of the clipping service are both well 
known Republican operatives. And they got a no bid contract. 
Can you commit to the Committee that you will be responding to 
the letters from Senators on this Committee regarding what 
happened in this case?
    Mr. Pruitt. Yes. Yes. It is my understanding that the 
contract was actually $87,000 less than what had been paid the 
year before for clipping service.
    Senator Van Hollen. That is right. Is it appropriate that 
this entity was doing searches on EPA employees to determine 
whether or not they were ``part of the resistance''?
    Mr. Pruitt. And I am not familiar with that happening. But 
I will say this to you, the contract has actually been 
terminated to date. But we will provide additional information 
to you.
    Senator Van Hollen. OK. The reason it really caught my eye 
was in connection with something that Senator Cardin raised. I 
appreciate your mentioning that the decision to end the 
contract for the Chesapeake Bay Journal, known as the Bay 
Journal, is being reconsidered. It should not have gotten to 
this point. It worries me, as a window into politicization at 
the EPA, that is captured in this other article as well. 
Because what happened in that case was it was shortly after the 
Bay Journal published an article. And there are lots of 
articles and opinion pieces in the Bay Journal. Shortly after 
they published an article questioning and criticizing the 
Administration's position on some environmental issues, 
especially climate change, and the impact that could have on 
the Chesapeake Bay. I encourage you to go to the Naval Academy, 
because there they talk about the risks of rising sea level in 
Annapolis, on their operations there and around the world.
    But the Bay Journal had a piece in there, and it was 
shortly after that that its contract was terminated despite a 
good performance review from EPA in April. And the retired head 
of the Bay program, just earlier this month, in an interview to 
Energy and Environment Daily, said that it was politics that 
killed the funding for the Bay Journal.
    Have you looked into this issue at all?
    Mr. Pruitt. As I shared with your colleague, Senator 
Cardin, about this, it is something that is under 
reconsideration. I am familiar with it at this point. We are 
taking steps to address it.
    Senator Van Hollen. OK. Well, Senator Cardin and I wrote to 
you back in October on this issue. We would appreciate a 
written response as well.
    But in an exchange that the folks at the Bay Journal had 
with the EPA folks making the decision, specifically John 
Konkus, who was on the phone with them, who is your Assistant 
Administrator for Public Affairs, he reportedly said the 
following. This is John Konkus: ``Well, everybody knows that 
the American public doesn't trust the press, and he saw no 
reason for us to fund the Bay Journal.''
    Is that a position that EPA takes regarding its review of 
contracts like this?
    Mr. Pruitt. I think I have indicated, Senator, that the 
contract is under reconsideration, and we are going to deal 
with it fairly.
    Senator Van Hollen. I understand. But you understand that 
this is now under litigation. And my concern is a broader 
issue, right? We should never have gotten to this point. We 
should not get to the point where EPA is making politically 
driven decisions on contracts where EPA is previously, ever, on 
political grounds. This is one where EPA found them to be in 
full performance.
    So I just hope you will work with us to get all the 
documents regarding this decision. It is a small contract. It 
is meaningful to the Bay Journal, which assembles a lot of this 
information. But I am most worried about it, also in 
combination with other stories about political decisions in 
contracting coming out of the EPA.
    So Mr. Chairman, I hope we will agree on a bipartisan basis 
that no agency should be basing its decision on politics. 
Again, I appreciate your review of this decision. But we really 
need to get to the bottom of how it happened so that there is 
integrity in the process. Thank you.
    Senator Barrasso. Thank you, Senator Van Hollen.
    Senator Sullivan.
    Senator Sullivan. Thank you, Mr. Chairman.
    Administrator Pruitt, good to see you. I am glad you are 
here. I heard it has been going great.
    It is good to have you here on a regular basis, so I 
appreciate that. I also appreciate the meeting you and Senator 
Whitehouse and I had recently. I am not sure if he mentioned 
it. I am actually serious; we had a very good meeting over in 
your office, the three of us and your staffs.
    Great to see Senator Van Hollen here in a Committee that 
actually gets a lot of stuff done. We welcome him.
    I do want to mention on that issue of marine debris that 
you and Senator Whitehouse and I talked about, we do want to 
look at opportunities for the EPA--in addition to NOAA and 
other Federal agencies--to play an important role on that. It 
is a very strong--there is a lot of strong bipartisan support 
on this issue, which is a huge environmental issue. It impacts 
my State, it impacts Rhode Island, it impacts every State, 
really, not just States with coastlines but every State in the 
country. I know we had a lot of follow up from our meeting, but 
I appreciate your working with me and Senator Whitehouse on 
that.
    I also appreciate, at the outset, the Chairman mentioned 
some of the things you have done. Your focus, as you said, 
during your confirmation hearing, on the rule of law process, 
which is important, certainly important in my State. You made 
some decisions recently with regard to Pebble Mine and others 
that I think you are focused a lot on that process.
    And on the WOTUS rule. Some of the complaints here, on this 
side, the vast majority of the States in America, Democrat and 
Republican-led States, were opposed to the WOTUS rule. I think 
there were 30 States that sued the Federal Government. There 
was no process. That was a huge Federal overreach. I appreciate 
your drawing that back. You have the vast support of the 
majority of the States and American citizens on that one. I 
just want to thank you on that.
    I do want to mention another one that is actually very 
important to me, and I am really glad that you highlighted it. 
Two, actually, in your opening testimony. You mentioned lead 
with regard to water infrastructure, water and sewer. I think 
that is important. And I think you can get a lot of bipartisan 
support on that.
    I do want to remind you, though--and we have talked about 
it a lot--after the Flint, Michigan, scandal, really, occurred, 
a lot of people were talking about how we need to address aging 
infrastructure. My own view, though, is we need to address 
communities who have no infrastructure first, like over 30 
communities in Alaska that don't have water or sewer systems, 
that don't have clean water, that still use what are called 
honey buckets, which don't smell good; they don't small like 
honey. It is actually American citizens removing their own 
human waste from their house because they don't have sewer 
systems, and putting them in a lagoon. American citizens. It is 
a disgrace.
    We passed a bill, a bipartisan bill last year, last 
Congress in this Committee that significantly advances funding 
for that, for communities that don't have water and sewer. In 
America? In America. Thousands of my constituents. I certainly 
want your support on that. Can you comment on that? I would 
like you to get to that before you get to the lead issue. 
Because it is a disgrace, right? Whether you live in Alaska 
or--no American citizen should live in a community where it is 
essentially like a third world country.
    Mr. Pruitt. Yes. I think this, Senator, actually goes to 
part of the President's infrastructure proposal. As I think you 
are aware, 25 percent of the moneys that are a part of the 
infrastructure package are going to go to rural communities 
across the country. I think water infrastructure is terribly 
important, as you have identified. So I think the 
infrastructure opportunity we have, as we go to the first 
quarter and second quarter of this year, hopefully we will be 
able to address those issues in that package.
    But I do think with respect to lead, it is also an 
infrastructure issue, aging infrastructure. But those rural 
communities that even have it also need upgrades and corrosion 
control measures and the rest. So there are opportunities 
across the spectrum with respect to these matters.
    Senator Sullivan. Great. Let me just touch on another one. 
I would like to be able to work with you and your team on an 
issue that you raised here, on abandoned mines. With regard to 
abandoned mines, it is actually not just abandoned mines in 
America. We have a significant challenge with our good 
neighbors to the north, not really to my north, they are 
actually to my State's east, Canada, where there are trans-
boundary mines that impact the waters and fishing and tourism 
of southeast Alaska. These are mines that are in Canada, some 
of which have been abandoned, some of which have recently had 
huge spills, like the Mount Polley Mine in British Columbia.
    I am actually going to be heading to Canada this weekend to 
meet with senior officials there with my Lieutenant Governor to 
talk about this trans-boundary mine issue and others. But 
having the full weight of the Federal Government, the State 
Department, and the EPA helping us on this--well, to be 
perfectly honest, Canada has not acted like a good neighbor on 
this. They are ignoring our concerns, and they are very 
legitimate concerns.
    So if I could get your commitment to help me and my State 
with regard to not just abandoned mines, which I think is a 
great topic to focus on, but trans-boundary mining in Canada, 
which negatively impacts, certainly has the potential to 
negatively impact, clean water in America. Can I get your 
commitment to work with us on that, and the State Department, 
on that issue?
    Mr. Pruitt. Yes, and we should work with Ambassador Craft 
as well on those issues.
    We have similar challenges on the southern border, not with 
respect to mines, but in Tijuana and California, with respect 
to water issues, sewage issues, with Mexico. So we do have some 
boundary issues that are very, very important, air and water, 
that we need to work with our neighbors to improve outcomes.
    Senator Sullivan. Great. I look forward to working with you 
on that. Thank you very much.
    Senator Barrasso. We are heading now into the second round 
of questions, the 2 minute round of questioning.
    Senator Carper would be first, although if you wanted to 
relinquish your time and call on Senator Whitehouse.
    Senator Whitehouse. Thank you. Two minutes is short, so I 
will try to be as quick as I can.
    I mentioned the May 5th day that you were going down to 
speak to the Republican fundraiser in Oklahoma. Do you recall 
off the top of your head right now whether you actually went to 
that? Do you remember?
    Mr. Pruitt. I did not attend, Senator. We did in fact 
receive an ethics review of that, and I was actually authorized 
to go. But when the event was publicized, they did it 
incorrectly.
    Senator Whitehouse. Would you tell us what you actually did 
that day?
    Mr. Pruitt. I am sorry?
    Senator Whitehouse. Would you tell us what you actually did 
that day, and unblock your schedule?
    Mr. Pruitt. Yes, we will provide the information pursuant 
to----
    Senator Whitehouse. Unredacted.
    Mr. Pruitt. That is something that we will coordinate with 
this body.
    Senator Whitehouse. OK. Because I don't see why you would 
block out parts of your schedule. That is all we have, is the 
lunch.
    Mr. Pruitt. And again, Senator----
    Senator Whitehouse. It is a long way to go for lunch with 
one man.
    Mr. Pruitt. I did not attend that event, so the day could 
have been rescheduled entirely as far as activities.
    Senator Whitehouse. Well, we would never know it, because 
it is all redacted and blacked out. We don't see that.
    Mr. Pruitt. We will look and see how productive we were 
that day.
    Senator Whitehouse. I would appreciate it.
    The second thing is that I had a request in to you 
regarding the EPA scientists who were instructed not to speak 
and then withdrew themselves from the speaking role at the 
Narragansett Bay Conference. You may recall that, because it 
kicked up a big fuss in my area. And it even kicked up quite a 
national fuss as well, because it was a patent case of 
scientists being told not to speak about something that they 
had worked on for years.
    What you answered in response to our questions about that 
was, ``This will not happen again.'' And I am delighted that 
this will not happen again. I think you are right, that it 
should not happen again. What we have not been given is any 
explanation of how it happened, who told whom what. Could you 
please--I mean, I don't know why it is hard to get an answer, 
but will you guarantee that you will tell us how that happened 
and give us an actual explanation, looking back at how this 
happened, who told who what, what were the e-mail chains, 
whatever the story was? Let's get it out there.
    Mr. Pruitt. And Senator, yes, in response to your other 
question, I am advised by staff that they did communicate to 
your office that I did not attend that event that you asked 
about. So that has been confirmed.
    Senator Whitehouse. Great. So now the question boils down 
to unblocking your schedule for that day.
    Mr. Pruitt. We will work on those issues.
    Senator Whitehouse. I think that is a very soft yes. We 
will see where we go.
    Senator Barrasso. Senator Ernst.
    Senator Ernst. Thank you very much.
    And in your testimony, Administrator, you have highlighted 
how EPA is committed to undoing regulation that is strangling 
economic growth and job creation. I travel all 99 counties in 
Iowa, so I hear this from businesses and manufacturers who are 
experiencing now tremendous growth as a direct result from 
undoing some of those burdensome regulations.
    How will the EPA continue to chart a path forward by 
returning power to the States and maintaining this economic 
growth trend?
    Mr. Pruitt. Senator, that is the reason I mentioned in my 
opening comments the importance of the three principles, from 
rule of law to process to federalism. That isn't just simply 
academic. It is not just obligatory to say that. It is actually 
essential to how we do business. Because when we adopt rules 
that are untethered to statutes, that means there is 
uncertainty. And most of the folks across the country that are 
regulated, they want to know what is expected of them, that it 
is grounded in the statutes that you have passed and that they 
can allocate resources to achieve those outcomes.
    So those are very important principles, fundamental 
principles to achieve clarity, certainty, confidence in the 
American people that what we are doing is well grounded in both 
science and the law and that they can take confidence in our 
actions.
    Senator Ernst. And in the remaining 45 seconds that we have 
left, I would like to allow you that time to answer any 
questions that maybe you didn't have enough time to answer.
    Mr. Pruitt. You know, Senator, I think overall, sometimes 
on these issues around the environment, there are passionate 
issues on both sides. That is the reason I keep talking about 
civility and I keep talking about this approach doing business 
that tries to find the pro-jobs and pro-environment 
combination. We don't have to choose between the two. We as a 
country have always done that well. We don't celebrate our 
progress and our success enough.
    We have reduced those pollutants under the Clean Air Act 
that we regulate under the National Ambient Air Quality Program 
by over 65 percent. We have made wonderful progress there. We 
in fact have reduced our CO<INF>2</INF> as a country by over 14 
percent from the years 2000 and 2014. And it is largely through 
innovation technology, Senator Carper. Obviously, there are 
Government regulations involved, in the mobile sources, 
particularly. But it is a partnership, it is an approach that 
we as a country, I think, are setting the pace. It is striking 
the balance between a growing economy and protecting our 
environment, being good stewards of our environment going 
ahead.
    Senator Ernst. And I appreciate that very much. Thank you 
for your partnership.
    Senator Barrasso. Thank you, Senator Ernst.
    Senator Duckworth.
    Senator Duckworth. Thank you, Mr. Chairman.
    Mr. Pruitt, I am holding in my hands a memorandum from the 
EPA dated March 21st, which is after you were confirmed as its 
head. I would like this memorandum submitted for the record, I 
ask unanimous consent.
    Senator Barrasso. Without objection.
    [The referenced material was not received at time of 
print.]
    Senator Duckworth. Thank you.
    It is titled Fiscal Year 2018 President's Budget, Major 
Policy and Final Resource Decisions. It communicates final 
resource levels and policy guidance to support the 
Environmental Protection Agency's fiscal year 2018 President's 
budget submission. In it, it lists elimination of the Great 
Lakes Restoration Program, numerous programs that we talked 
about, including my previous mentioning of the statement about 
shutting down EPA Office Region 5 as a rent cost avoidance 
measure, listing Potomac Yards North, Region 1, Region 5, and 
Region 9. You might want to make yourself familiar with this 
particular memorandum, as it is being submitted for the record.
    I would like to go back to your travel, Mr. Pruitt. In 
addition to your hefty domestic travel schedule, you have taken 
at least four foreign trips, to include a recent trip to 
Morocco at a cost to taxpayers of $40,000, where according to 
the Washington Post you spent 4 days promoting the sale of 
American natural gas. Now, while your home State of Oklahoma is 
the third largest producer of natural gas in the country, I 
don't understand what the sale of natural gas has to do with 
the EPA's mission.
    This is certainly inconsistent with your claim to bring 
back the basics, the vision of EPA. Natural gas, in case you 
were unaware, is under the jurisdiction of the U.S. Department 
of Energy. And promotion of natural gas is the kind of thing 
that the Secretary of Energy would do, or perhaps someone 
running for Governor of Oklahoma or some other elected office 
there, but not consistent with what the head of the EPA should 
be doing.
    So will you provide this Committee, yes or no, with a 
detailed schedule of your meetings and receipts for 
international travel you have taken since being confirmed?
    Mr. Pruitt. I will do so, because it will show that I have 
attended two countries, not four. So I am not sure where you 
got your information.
    Senator Duckworth. Well, the last two were canceled, Japan 
and Israel, during the shutdown.
    Mr. Pruitt. We will provide that to the Committee, yes.
    Senator Duckworth. Wonderful; thank you. And can I assume 
that like all decent Americans, you did not find Morocco, a 
North African nation, to be a shithole when you visited?
    Senator Barrasso. The Senator's time has expired.
    Senator Duckworth. Thank you, Mr. Chairman.
    Senator Barrasso. Senator Gillibrand.
    Senator Gillibrand. Thank you, Mr. Chairman.
    Administrator Pruitt, as we have discussed previously, I am 
really concerned about the levels of a toxic PFOA and PFOS that 
have been found throughout New York State, from Hoosick Falls 
in upstate New York to Newburgh on Long Island. Just over a 
year and a half ago Congress granted EPA the authority to 
regulate the safety of chemicals when it revised the Toxic 
Substances Control Act, TSCA.
    In that law, Congress instructed the EPA to consider the 
risks from all of the uses of a chemical that are ``intended, 
known, or reasonably foreseen to be manufactured, processed, 
distributed in commerce, used, or disposed of.'' Your agency 
recently finalized its TSCA implementation rules. Despite 
Congress' very clear direction, those rules ignored the 
public's exposure to the past uses of chemicals called legacy 
uses. However, legacy uses pose risks to public health, because 
the past manufacturing and disposal of those chemicals can 
still contaminate groundwater as is currently the case with 
PFOA in Hoosick Falls, New York.
    This means that EPA will likely not study the health risks 
from widespread exposure to chemicals like PFOA under the TSCA 
law. You have said that ``any action by the EPA that exceeds 
the authority granted to it by Congress by definition cannot be 
consistent with the agency's mission.'' EPA's decision to 
choose to ignore the clear intent of Congress is therefore not 
consistent with the agency's mission.
    Will you please direct EPA to revise the TSCA 
implementation rules to comply with Congress' direction that 
all uses of a chemical, including legacy uses, are studied?
    Mr. Pruitt. We are in fact going to look at foreseeable 
uses, as you have indicated. I am very concerned; PFOA and PFOS 
have not been manufactured or distributed since the early 
2000s. So all the issues we have with PFOA and PFOS are in fact 
legacy issues.
    Senator Gillibrand. Legacy, all of it.
    Mr. Pruitt. And we are very much going to focus on that.
    Senator Gillibrand. OK.
    On the Hudson River, specifically, I would like to begin by 
saying that I was very glad to see yesterday's announcement 
that EPA is broadening the scope of its Hudson River cleanup 
analysis to look at sediment samples from the upper Hudson, the 
flood plain, and assess the impacts of contamination from the 
lower Hudson. As you know, the EPA is currently in the process 
of finalizing the 5 year review that examines the effectiveness 
of dredging for removing PCBs from the Hudson River.
    I am very concerned that in the draft review report, EPA 
determined that while the remedy is not currently protective of 
human health and the environment, no additional PCB removal is 
needed, even though restrictions on the consumption of fish 
from the river are expect to remain for more than 50--five-oh-- 
years. New York State and the U.S. Fish and Wildlife Service, 
both natural resources trustees for the Hudson River, strongly 
disagree with EPA's analysis. Will you incorporate the new 
sampling data in the 5 year review analysis?
    Mr. Pruitt. We in fact are reviewing those samples as we 
speak. And so there has been no final determination on that. 
And I am concerned, as you are, there has actually been PCBs 
found in the flood plain.
    Senator Gillibrand. Yes.
    Mr. Pruitt. In the 40 miles that has already been dredged. 
So there is much work left to be done before we get clarity on 
that issue.
    Senator Gillibrand. And will you personally review the 
final report before it is released to the public and ensure 
that all the concerns raised by the trustees and the public are 
fully addressed?
    Mr. Pruitt. Yes, I will.
    Senator Gillibrand. OK, third topic. In December EPA 
released a list of 21 Superfund sites that need immediate, 
intense action. Not a single one of the sites on the list is in 
New York State, despite the fact that there are currently 86 
Superfund sites in our State. EPA has offered no detailed 
explanation of how it arrived at this list.
    Additionally, it is my understanding that when a Freedom of 
Information Act request was filed, asking for documents 
associated with EPA's Superfund Task Force, the response was 
that not a single document from this 107 member task force 
existed, other than the final public memo. So that obviously is 
not true.
    Will you commit to producing all documents related to how 
EPA developed the 42 specific recommendations on how to improve 
the Superfund program and the immediate intense action list of 
Superfund sites within 15 business days?
    Mr. Pruitt. We will deliver them to you by the end of the 
week.
    Senator Gillibrand. Great. Given your focus on interest in 
Superfund sites, do you believe it is wise to cut the budget 
for EPA's Superfund program?
    Mr. Pruitt. As indicated, Senator, with respect to the 
budgeting process, I have made it clear to this body, as well 
as to the House, that we will continue to work with you to make 
sure priorities are funded. I am concerned about orphan sites 
across the country in the Superfund portfolio. I think there 
are greater challenges beyond money, but money matters to our 
success in that side of our responsibility. So yes, we will 
continue the discussion with you.
    Senator Gillibrand. Thank you.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you very much.
    Before turning to Senator Inhofe, it was interesting, there 
was this full page article in the Washington Post, Friday, 
January 26th, 2018, about going through the work that the 
Administrator is doing with regard to Superfund, with maps of 
before and after, basically talking about the exceptionally 
good job that is being done by the Administrator of the EPA in 
addressing Superfunds. I don't know if you had seen that 
article, but I would recommend it to your attention.
    Mr. Pruitt. If I may, Mr. Chairman, just for a second, in 
that regard, I think the sites that we highlighted in the last 
year, they are not meant to be exclusive. Those are sites that 
we see that immediate progress can be made within a timeframe. 
So that list will continue to be populated with new sites. So 
it is not an exclusionary list at all. It was a matter of 
providing focus to our Land and Emergency Management Office on 
getting achievement in each of those respective areas.
    Senator Carper. Mr. Chairman.
    Mr. Chairman, I would ask unanimous consent to submit for 
the record Superfund materials, including several news articles 
about EPA's Superfund activities, including an article that 
found that the majority of the Superfund cleanups touted by Mr. 
Pruitt was the work of the Obama administration.
    Thank you, Mr. Chairman.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. And without objection, I will submit this 
article.
    [The referenced information follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Since we were in the other committee, not able to be here 
at this time, I was told there were a couple of things where 
you didn't have ample time to respond. Actually, there were two 
questions I was going to ask; I am going to go ahead, since I 
didn't get a chance to before. These were the subject matter 
that you didn't have time to respond to.
    You have been vocal about the differences of the EPA being 
about stewardship versus prohibition. We have been through a 
period of prohibition. What is the difference, and how are you 
moving EPA from a policy of prohibition to stewardship?
    Mr. Pruitt. Well, I think it is something that the American 
people, and I think this body, and as we do our work, we need 
to wrestle with what is true environmentalism. That is a very 
important question. I think as we ask and answer that question, 
to your question, Senator Inhofe, many look at that as a 
prohibition to say that even though we have been blessed with 
natural resources to, again, power the world and feed the 
world, that we put up fences and prevent the development of 
those resources. We just never have done that as a country. We 
have always been about implementing technology, innovation to 
achieve better outcomes as far as emission.
    But the American people I think expect us to use the 
natural resources, focus on stewardship, and not let 
prohibition be our aim. So that is something we intend on 
talking about as an attitude as we go through 2018, and getting 
back to basics in these core, fundamental areas that we have 
already talked about as far as showing outcomes.
    Senator Inhofe. What are some of the enforcement or 
response efforts that you believe show that you take your role 
as a steward of the environment under the law, that you take it 
seriously?
    Mr. Pruitt. It is interesting, Senator Carper just made an 
entry in the record as far as the Superfund, and saying that 
that is the work of the previous Administration. Look, I mean, 
we take cases that come to us that the previous Administration 
began. But I will tell you, I am very proud of the work we have 
done over the last year getting accountability with respect to 
Superfund.
    As an example, in Houston, Texas--I mentioned this 
earlier--there is a responsible party there that for years has 
simply put rocks on top of a site that has dioxin. And I went 
into Houston with our team in Region 6. We came up with a 
conclusion of $115 million, and we are enforcing it. The 
company has been very much barking or objecting to that. But we 
are given accountability with respect to cleanup.
    So, Senator Carper, I think we as a team, I am very, very 
proud of the career employees as well as the appointees working 
together to achieve better outcomes in the Superfund area. That 
is one example of those.
    Senator Barrasso. Thank you, Senator Inhofe.
    Senator Carper. Could I just say something very briefly, 
this will be part of my time. To that point, as I understand, 
there are 300 Superfund sites yet to be cleaned up. We have an 
Administration----
    Mr. Pruitt. More than that.
    Senator Carper. Over 300 yet to be cleaned up. We have an 
Administration that is asking for not more money to clean them 
up, but actually less money.
    That is all. I yield back.
    Senator Barrasso. I still have a little time from my round.
    Yes, sir.
    Mr. Pruitt. There is actually 1,340-plus sites across the 
country that are yet to be remediated. Most of those sites have 
a responsible party--a company-- that polluted that is 
responsible that has the money to do it. We have to have 
processes in place to hold them accountable to get those 
cleanups occurring. That is our focus, along with advising 
Congress on needs that we have on funding.
    Senator Barrasso. Senator Carper, we are going to head to 
Senator Merkley next.
    Senator Merkley. Thank you.
    Mr. Pruitt, you had talked quite a bit previously about 
having a Red Team, Blue Team exercise to examine the issue of 
climate change, global warming. Is that still part of your 
plan?
    Mr. Pruitt. It is under consideration, Senator. The 
discussion is not whether, there are questions that we know the 
answer to, there are questions we don't know the answer to. For 
example, what is the ideal surface temperature in the year 2100 
is something that many folks have different perspective on. So 
that Red Team, Blue Team exercise is an exercise to provide an 
opportunity to the American people to consume information from 
scientists that have different perspectives on key issues, and 
frankly could be used to build consensus in this body.
    As you know, the Clean Air Act that was amended in 1990, as 
you look at it, many who are involved in that process recognize 
that CO<INF>2</INF> was not part of the discussion under 
Section 111. So we have much work to do legally and 
procedurally. But this is still under consideration.
    Senator Merkley. So it is my understanding that the White 
House has asked the agency not to go forward with the Red Team, 
Blue Team.
    Mr. Pruitt. That is untrue.
    Senator Merkley. So the public reports were incorrect?
    Mr. Pruitt. In this instance, yes.
    Senator Merkley. Thank you.
    Well, I will say that the perception of the Red Team, Blue 
Team was that your entire intention was to, on behalf of the 
Koch Brother cartel, continue to mislead American people about 
the very significant impacts of carbon pollution, casting doubt 
on established science, contrary to your contention that you 
like to listen to scientists. Is it in fact your sense that the 
scientific world is split down the middle on this question of 
whether carbon dioxide is warming the planet and causing 
significantly damage in many ways to rural America, to our 
farming, to our fishing, and to our forests?
    Mr. Pruitt. This idea, the Red Team, Blue Team exercise, 
did not originate with me. It originated with the scientist 
from NYU called Steve Koonin, who actually worked for the Obama 
administration in the Department of Energy. This is something 
that we are considering based upon that original publication in 
the Wall Street Journal.
    Senator Merkley. I will be watching with interest whether 
you conduct it, if you do conduct it, because you are a year 
in, and we have not seen any evidence in a way that sheds 
additional information on important issues, as you have 
suggested. Or it is just another effort to confuse the public 
over well established scientific information.
    Senator Barrasso. Senator Merkley, thank you.
    Senator Markey.
    Senator Markey. Merkley, Markey. It took me 20 years to get 
Volkley, Markey in Massachusetts out of my life. And now Jeff 
and I have to have Merkley, Markey.
    Senator Inhofe. Your time expired.
    [Laughter.]
    Senator Barrasso. As you figure out your identity 
situation, I would submit to the record, Superfund has been a 
priority under Administrator Pruitt. Last week, the EPA 
announced a cleanup agreement for the Nation's largest 
Superfund site. The Montana Standard is reporting, and I am 
going to submit this to the record, ``EPA Administrator Pruitt 
put both Butte and Anaconda, which is a separate Superfund 
site, on the emphasis list last month.'' This means that both 
sites are being fast tracked for completion and getting 
Pruitt's ``immediate and intense attention.'' I would like to 
enter this into the record, without objection, an article from 
the Montana Standard, January 26th, 2018.
    [The referenced information follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Markey. Thank you, Mr. Chairman; I appreciate it.
    Mr. Pruitt, it is my understanding that the EPA has 
finalized its conclusion that formaldehyde causes leukemia and 
other cancers, and that that completed new assessment is ready 
to be released for public review. But it is still being held 
up.
    Can you give us a status update as to the EPA's handling of 
the formaldehyde issue and the conclusion that it in fact does 
cause leukemias and other cancers?
    Mr. Pruitt. My understanding is similar to yours, but I 
will confirm that and provide the information to you from the 
program office.
    Senator Markey. Will you commit to releasing that report, 
which is already completed, in a short period of time once you 
have reviewed it, if in fact meets the standards which your EPA 
staff has already established that it does cause----
    Mr. Pruitt. Senator, I commit to you that I will look into 
that and make sure your office is aware of what we have and 
when we can release it.
    Senator Markey. Can you get me an answer within 10 days?
    Mr. Pruitt. Yes.
    Senator Markey. Thank you.
    And I have also sent you over a series of letters seeking 
information about several different policies and processes that 
have been put in place at the EPA. I have not received any 
response to those letters. I would ask that you also look at 
those letters and provide a response in the shortest possible 
time.
    Mr. Pruitt. My very handy staff behind me indicates that we 
provided answers to 100 questions 1 week ago. So if there are 
additional questions beyond the 100 that you have already 
submitted, we will get that to you.
    Senator Markey. OK, great, thank you.
    Senator Barrasso. Administrator Pruitt, last month I sent 
you a letter encouraging the EPA to withdraw its proposed rule 
on in situ uranium recovery, ISR.
    Mr. Pruitt. I am sorry; I didn't hear you, Chairman.
    Senator Barrasso. Last month, I sent you a letter, EPA a 
letter, asking the EPA to withdraw its proposed rule on its in 
situ uranium recovery, ISR. The thing that is interesting about 
this rule, this is a rule that the Obama administration 
proposed on January 19th, 2017, 1 day before President Obama 
left office.
    Since then, the Nuclear Regulatory Commission has come 
out--our Nation's principal regulator on these activities--and 
has stated there is no health or safety justification for this 
rulemaking by the EPA that came out 1 day before President 
Obama left office. The Nuclear Regulatory Commission went on to 
say, in almost 40 years of operational experience, Nuclear 
Regulatory Commission staff is aware of no documented instance 
of ISR, in situ uranium recovery, wellfield being a source of 
contamination of an adjacent or nearby aquifer or of a non-
exempt portion of the same aquifer in which the ISR activities 
are being conducted. No documented instance.
    Wyoming produces more uranium than any other State. Uranium 
production is vital to our energy and national security. When 
can we expect the EPA to decide whether or not to scrap this 
unnecessary regulation?
    Mr. Pruitt. I will get information on that, Mr. Chairman, 
very quickly, and get it back to your office. I am not sure of 
the timing presently.
    Senator Barrasso. Senator Carper, do you have a final round 
of questions? I have one final question.
    Senator Carper. I do. I would ask unanimous consent, since 
no one else is going to come to have 5 minutes to ask these 
questions.
    Senator Inhofe. Reserving the right to object, say that 
again?
    Senator Carper. Since no one else appears to be going to 
arrive, I would ask that I have 5 minutes to ask my last round 
of questions. And if Senator Inhofe would like to have another 
3 minutes or so, that is fine by me. Whatever time the Chairman 
wants.
    Senator Inhofe. Since I have been at the other committee 
hearing, have you had your second round? Are you taking your 
second round?
    Senator Carper. No, I have not.
    Senator Barrasso. He is taking a second round.
    Senator Carper. And you want to turn that into a 5 minute 
round?
    Senator Inhofe. I object.
    Senator Carper. Why, thank you.
    We have something called the Golden Rule--yes, go ahead.
    Senator Markey. Just for 20 seconds, if the gentleman would 
yield. I just checked with my staff and there has been no 
answer to the questions which I posed to you, Mr. 
Administrator. So I would ask, again, that you respond to me in 
a timely fashion.
    Senator Carper. There is something called the Golden Rule, 
almost every Thursday when we gather in Senator Inhofe's 
office, we meet with the chaplain of the U.S. Senate, and he 
reminds us to treat other people the way we want to be treated. 
It is not only appropriate in a forum like this, it is also 
appropriate when we are considering pollution that is put up in 
the air in States to the west of downwind States, including all 
of us who live on the east coast.
    To the extent that this EPA and this Administration 
believes that the Golden Rule is a good idea, I would ask that 
you consider applying the Golden Rule when it comes to cross-
border pollution. When I was Governor of Delaware, I could 
literally shut down my State's economy--all the cars, vans, 
trucks off the road, shut down all of our businesses--we would 
still have been out of compliance for clean air because of all 
the stuff that is put up in the air in other States.
    I don't like that, and frankly, I am not sure I like being 
denied the opportunity to actually go from 2 minutes to 5 
minutes when we have plenty of time.
    Senator Inhofe. Listen----
    Senator Carper. No, I will not.
    Senator Inhofe. Mr. Chairman, since we have been, my name 
has been referred to, let me just respond and say that there 
are four committee hearings at the same time today. We are 
trying to balance. And if you continue one going longer, the 
ones who suffer, you are punishing, are the ones who have not 
had ample to time to even their first round of questioning in 
some of the other committees. So in sense of fairness, I would 
like to--there is going to be an end to this sometime.
    Senator Carper. Mr. Chairman, I want to ask unanimous 
consent to submit to the record the history of the Obama EPA's 
years long process to address the Waters of the U.S. Rule. This 
included hundreds of meetings across the country, including one 
in Delaware involving EPA, Army Corps of Engineers, farmers and 
builders. I think over 100, there were over a million public 
comments that were received during the course of the years long 
activity. I am told that those million or so comments were 
actually responded to.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Carper. Thank you, Mr. Chairman.
    I have one more question I want to ask. This gives the 
following on implementing TSCA.
    Mr. Pruitt, you have said on numerous occasions, ``The only 
authority that any agency has in the executive branch is the 
authority given to it by Congress.'' When Congress was 
negotiating the final text of the Toxic Substances Control Act, 
EPA came to Congress and asked for specific provisions that 
would allow the agency to move forward with bans for some uses 
of three highly toxic chemicals. Congress agreed, and that 
language was included in the final law.
    One of those chemicals, a paint stripper called methylene 
chloride, is so dangerous that it has killed dozens of people, 
even when they were wearing protective gear. EPA proposed rules 
banning these chemicals more than a year ago. But more recent 
reports indicate that EPA may delay action on the uses of these 
chemicals for several more years, which almost certainly will 
mean that more people will get sick and probably some of them 
will die.
    Yes or no, Mr. Pruitt; to wrap it up, will you commit to 
use the authority given to EPA by Congress and the Toxic 
Substances Control Act and finalize these bans within the next 
30 days? Will you?
    Mr. Pruitt. It's my understanding that is actually on the 
priority list as far as the chemicals that are we reviewing. 
TCE and others. So that is something that I will clarify and 
confirm with the agency. But that was my understanding.
    Senator Carper. I hope that means yes.
    Mr. Chairman, I would like to ask unanimous consent to 
submit for the record more materials describing Mr. Pruitt's 
record at the EPA. Thank you.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
   
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. And my final question is, can you just 
share a little bit maybe some of your goals and metrics you are 
going to set for yourself for the year ahead? I know this is 
something you and your team work on.
    Mr. Pruitt. Yes, Senator. In fact, at the end of last year, 
we had solicited and surveyed each of our program offices in 
the agency to submit 5 year goals in air, water, across the 
full spectrum of our regulation. In that dialogue, we had a 
very collaborative discussion to set ambitious goals on 
attainment issues and other matters.
    The metrics are really--if you don't set an aim, it has 
been said if you don't know where you are going, any road will 
take you there. I think that what we are trying to do is set 
aims and objectives in each of our key priority areas, from 
water to air to chemical, to Superfund, across the full 
spectrum, so that we can track day in and day out how we are 
making progress toward those objectives.
    We have not done that before. In fact, before we arrived at 
the agency, we didn't know how long it took to do a permit 
under the Clean Water Act. We have collected that data, 
surveyed that, and it takes years for us to do that. States 
sometimes do it within 6 months to a year.
    So we are trying to find out how good or not we are at 
certain things and then set objectives on how to improve and 
measure that daily to achieve outcomes.
    Senator Barrasso. Thank you very much, Administrator 
Pruitt. I appreciate your being here.
    Members may submit questions in writing for the record by 
the close of business. We would like to hear back from you. 
That will go through February 13th.
    I want to thank you for your time and your testimony.
    The hearing is adjourned.
    [Whereupon, at 12:26 p.m., the hearing was adjourned.]
    [Additional material submitted for the record follows:]
   
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                               [all] 
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
